Department of Homeland Security
   Ofﬁce of Inspector General

             The Performance of 287(g) Agreements 

                        Report Update 





OIG-10-124                                    September 2010
                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                          September 30, 2010

                                          Preface

The Department of Homeland Security (DHS) Office ofInspector General (DIG) was
established by the Homeland Security Act of2002 (P.L. 107-296) by amendment to the
Inspector General Act of1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency,
and effectiveness within the department.

This report addresses progress made toward implementing recommendations from our
prior report, OIG-IO-63, The Performance of287(g) Agreements, issued in March 2010.
We also address the use of287(g) funds, challenges in conducting compliance reviews of
287(g) agreements, and performance measures used to determine the success of the
287(g) program in achieving its goals. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                               C _~:OV1A,Cr-
                                      Carlton I. Mann
                                      Assistant Inspector General for Inspections
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 
 


Background ..........................................................................................................................2 
 


Results of Review ................................................................................................................5 
 


   ICE Needs to Continue Efforts to Implement Prior OIG Recommendations 

   Regarding 287(g) Program Operations........................................................................... 5 

   Recommendation ............................................................................................................ 6 

   Management Comments and OIG Analysis ................................................................... 6 


   Management Controls Over Funds Allocated For 287(g) Inspections Need to Be 

   Established ...................................................................................................................... 7 

   Recommendations......................................................................................................... 12 

   Management Comments and OIG Analysis ................................................................. 12 


   Challenges for the 287(g) Inspections Group Need to Be Mitigated............................ 16 
 

   Recommendations......................................................................................................... 19 
 

   Management Comments and OIG Analysis ................................................................. 20 
 


   ICE and LEA Compliance With Revised MOA Cannot Be Readily Determined........ 22 
 

   Recommendations......................................................................................................... 30 
 

   Management Comments and OIG Analysis ................................................................. 31 
 



Appendices
 Appendix A:               Purpose, Scope, and Methodology.......................................................36 

 Appendix B:               Management Comments to the Draft Report .......................................38 

 Appendix C:               Status of Recommendations from Prior OIG Report...........................47 

 Appendix D:               Side-by-Side Comparison of Old MOA vs. New MOA Template......61 

 Appendix E:               Major Contributors to this Report........................................................84 

 Appendix F:               Report Distribution ..............................................................................85 


Abbreviations

DHS                   Department of Homeland Security
DRO                   Office of Detention and Removal Operations
ENFORCE               Enforcement Case Tracking System
ERO                   Enforcement Removal Operations
FOD                   Field Office Director
HSI                   Homeland Security Investigations
ICE                   U.S. Immigration and Customs Enforcement
IDENT                 Automated Biometric Identification System
IEA                   immigration enforcement agent
JEO    jail enforcement officer
LEA    law enforcement agency
MSU    Mission Support Unit
MOA    Memorandum of Agreement
OBPP   Office of Budget and Program Performance
OCIO   Office of the Chief Information Officer
ODO    Office of Detention Oversight
OI     Office of Investigations
OIG    Office of Inspector General
OPR    Office of Professional Responsibility
OSLC   Office of State and Local Coordination
OTD    Office of Training and Development
RAC    Resident Agent in Charge
SAC    Special Agent in Charge
TFO    task force officer
TOPS   Table of Organization Position System
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                Section 287(g) of the Immigration and Nationality Act, as
                amended, authorizes the Department of Homeland Security’s
                Immigration and Customs Enforcement to delegate federal
                immigration enforcement authorities to state and local law
                enforcement agencies. The Department of Homeland Security
                Appropriations Act, 2010, and accompanying House Report 111­
                157 and Conference Report 111-298, require that we report on the
                performance of 287(g) agreements with state and local authorities.

                This report is an update to OIG-10-63, The Performance of 287(g)
                Agreements, issued in March 2010, which included 33
                recommendations to strengthen management controls and improve
                oversight of 287(g) program operations.

                In this review, we determined that Immigration and Customs
                Enforcement needs to continue efforts to implement our prior
                recommendations. We identified challenges that may reduce the
                effectiveness of a review process intended as a resource for
                ensuring compliance with 287(g) program requirements. We also
                noted that there were insufficient controls and supporting
                documentation to verify that 287(g) inspection funds were used
                solely as intended. In addition, we identified the need for a more
                comprehensive approach for determining the success of 287(g)
                program goals. Immigration and Customs Enforcement needs to
                (1) establish a process to ensure effective management controls
                and accountability over the 287(g) program and related funding,
                (2) develop and implement a strategy for ensuring the success of
                the compliance review process, and (3) establish a comprehensive
                approach for determining whether 287(g) program goals for
                removing criminal aliens who pose a threat to public safety are
                being achieved.

                We are making 16 recommendations for Immigration and Customs
                Enforcement to improve overall operations of the 287(g) program.




                 The Performance of 287(g) Agreements Report Update 
 


                                       Page 1
 

Background
                       In September 1996, Congress authorized the executive branch to
                       delegate immigration enforcement authorities to state and local
                       government agencies. The Illegal Immigration Reform and
                       Immigrant Responsibility Act of 1996 1 amended the Immigration and
                       Nationality Act (INA) by adding section 287(g). 2 Under this section,
                       the Secretary of Homeland Security is authorized to enter into written
                       agreements with state and local law enforcement agencies (LEA) to
                       facilitate the delegation of immigration enforcement functions to
                       select law enforcement officers. 3 The law requires that this
                       delegation of immigration enforcement authorities be executed
                       through formal, written agreements, referred to as Memorandum of
                       Agreements (MOAs).

                       MOAs are executed between the Assistant Secretary for Immigration
                       and Customs Enforcement (ICE) and the participating agency’s
                       authorized representative. The agreements outline terms and
                       conditions under which participating LEA personnel will function as
                       immigration officers. Pursuant to these MOAs, designated officers
                       who receive appropriate training and function under the supervision
                       of sworn ICE officers are permitted to perform immigration law
                       enforcement duties.

                       The federal government did not enter into any 287(g) agreements
                       between 1996 and 2002. From 2002 to 2006, DHS delegated
                       enforcement authorities to six jurisdictions. After 2006, the 287(g)
                       program expanded as interest in interior immigration enforcement at
                       the state and local levels increased, and more dedicated funding for
                       287(g) program efforts was made available.

                       MOAs designate the 287(g) program model that jurisdictions are
                       authorized to use. Participating jurisdictions employ a Detention
                       Model, Task Force Officer (TFO) Model, or both, referred to as the
                       Joint Model. 4

                       The Detention Model involves partner officers exercising their
                       immigration-related authorities only while assigned to jail or

1
  P.L. 104-208, sec. 133, Sept. 30, 1996. 
 

2
  Codified at 8 U.S.C. 1357(g). 
 

3
  The text of 8 U.S.C. 1357(g) specifically names the Attorney General, rather than the Secretary of 
 

Homeland Security, as having this authority. However, this and other immigration enforcement functions
 

of the Immigration and Naturalization Service were transferred to the Department of Homeland Security
 

under the Homeland Security Act of 2002. (6 U.S.C. 251.)
 

4
  The name for Jail Enforcement model was changed to Detention model in the revised MOA. 
 



                          The Performance of 287(g) Agreements Report Update 
 


                                                 Page 2
 

 correctional facilities. Officers identify and initiate immigration
 proceedings for aliens subject to removal that have been charged with
 or convicted of an offense.

 The TFO Model is composed of partner officers assigned to task
 force operations supported by ICE or partner officers in the field who
 are supervised by ICE. Officers exercise their immigration-related
 authorities during criminal investigations involving aliens within
 their jurisdiction or as directed by the ICE Special Agent in Charge
 (SAC).

 In July 2009, ICE released a new template for 287(g) agreements to
 replace existing agreements. According to DHS officials, new 287(g)
 agreements will:

   •	 Promote consistency by ensuring that all state and local law
      enforcement partners use the same standards in implementing
      the 287(g) program;

   •	 Align 287(g) local operations with major ICE enforcement
      priorities—specifically, the identification and removal of
      criminal aliens;

   •	 Address concerns that individuals may be arrested for minor
      offenses as a guise to initiate removal proceedings by requiring
      participating local law enforcement agencies to pursue all
      criminal charges that originally caused the offender to be taken
      into custody;

   •	 Define the objectives of the 287(g) program, outline the
      immigration enforcement authorities granted by the agreement,
      and provide guidelines for ICE supervision of local agency
      officer operations, information reporting and tracking,
      complaint procedures and implementation measures; and

   •	 Strengthen ICE oversight of the program to allow ICE to better
      utilize the resources and capabilities of its law enforcement
      partners across the nation.

 ICE required 287(g) jurisdictions to sign a new agreement to continue
participation in the program. As of August 1, 2010, ICE has 71
MOAs, with 26 TFO Models, 32 Detention Models, and 13 Joint
Models.




    The Performance of 287(g) Agreements Report Update 


                          Page 3

                    For Fiscal Year (FY) 2006, Congress appropriated $5 million for the
                    287(g) program. By 2011, program funding had increased to $68.3
                    million, as shown in Table 1.


                                    Table 1. Allocated 287(g) Program Funding
                                        Fiscal            Funding         Percentage
                                        Year             in millions       Change
                                        2006                 $5.0
                                        2007                $14.4               188%
                                        2008                $42.1               192%
                                        2009                $54.1                29%
                                        2010                $68.0                26%
                                        2011*               $68.3               0.5%
                                Source: ICE Office of State and Local Coordination
                                * FY 2011 budget request.

                    The ICE Office of State and Local Coordination (OSLC) maintains
                    responsibility for management and oversight of the 287(g) program.
                    OSLC coordinates with Homeland Security Investigations (HSI) and
                    Enforcement Removal Operations (ERO) to provide day-to-day
                    supervision for 287(g) officers. 5 HSI maintains supervisory
                    responsibility over 287(g) task force activities, and ERO supervises
                    jail enforcement officer (JEO) immigration enforcement functions.
                    The ICE Office of the Chief Information Officer (OCIO) furnishes and
                    installs information technology equipment, and provides technical
                    support for 287(g) officers’ access to DHS systems. The Office of
                    Training and Development (OTD) designs and delivers 287(g)
                    training.

                    Within the ICE Office of Professional Responsibility (OPR), the
                    287(g) Inspections Group assesses the effectiveness of ICE field
                    offices in supervising and supporting 287(g) programs, as well as ICE
                    and LEA compliance with program policies and MOA requirements.
                    The 287(g) Inspections Group conducts compliance reviews to assess
                    conformance with conditions of MOAs between ICE and participating
                    LEAs, and provides ICE management with feedback on the
                    administration of the program by local ICE offices.

                    In FY 2009, Congress earmarked $5 million specifically for 287(g)
                    compliance reviews. For FY 2009, ICE completed 20 compliance


5
 Homeland Security Investigations and Enforcement Removal Operations were formerly known as the
Office of Investigations and the Office of Detention and Removal Operations, respectively.


                         The Performance of 287(g) Agreements Report Update 


                                               Page 4

             review reports. For FY 2010, 22 of 24 compliance reviews have been
             completed as of August 2010.

Results of Review
          Our report provides updated information on the status of ICE efforts to
          address recommendations in our prior report, The Performance of 287(g)
          Agreements, dated March 2010. We also analyzed operations of the
          287(g) Inspections Group to identify measures that can improve the
          efficiency and effectiveness of their efforts to determine compliance with
          287(g) program requirements. In addition, we reviewed ICE’s
          implementation of the revised MOA, and identified specific aspects that
          may enhance ICE’s ability to achieve program objectives, as well as
          challenges that may reduce its effectiveness in improving program
          operations.

     ICE Needs to Continue Efforts to Implement Prior OIG 
 

     Recommendations Regarding 287(g) Program Operations 
 

          Our March 2010 report, The Performance of 287(g) Agreements, included
          33 recommendations for ICE to strengthen management controls, promote
          effective program operations and address related risks. ICE concurred
          with 32 of the 33 recommendations.

          Based on our analysis of documentation provided by ICE, we closed
          Recommendations 3, 11, 19, 28, and 33. To close a recommendation, we
          must agree with the actions ICE has taken, or plans to take, to resolve our
          concerns. Corrective actions planned or taken by ICE for these
          recommendations included (1) establishing and implementing data entry
          requirements; (2) establishing a process to ensure that LEAs notify OPR
          of complaints against 287(g) officers and other LEA personnel improperly
          performing immigration enforcement activities; (3) determining whether
          the civil rights law training was adequate; (4) posting 287(g) complaint
          reporting procedures on ICE’s public website and in participating LEA
          facilities; and (5) evaluating the use of 287(g) vehicles to determine
          whether they are used as intended, and properly disposed of. Appendix C
          details the status of the remaining 28 open recommendations.

          ICE has made efforts to implement improvements in program operations
          in some areas identified during our prior field work. However, for other
          important areas, ICE has provided action plans and related documentation
          that do not fully address critical issues outlined in our prior report.

          The 287(g) program provides benefits to enhance the safety and security
          of participating communities, as well as challenges for ICE that may

                  The Performance of 287(g) Agreements Report Update 


                                        Page 5

reduce its effectiveness. Implementing corrective actions outlined in our
report should enable ICE to achieve more effective, efficient, and
economical operations within the program.


Recommendation
       We recommend that Immigration and Customs Enforcement:

       Recommendation #1: Take timely and appropriate actions to
       implement OIG recommendations intended to strengthen
       management controls and improve oversight of 287(g) operations.


Management Comments and OIG Analysis
       We evaluated ICE’s written comments and have made changes to the
       report where we deem appropriate. A summary of ICE’s written
       responses to our recommendations and our analysis of the responses
       follow the recommendation. A copy of ICE’s response, in its entirety,
       appears in Appendix B.

       ICE Response: ICE concurred with Recommendation 1.

       ICE has already taken significant actions to strengthen
       management controls over 287(g) operations. Additionally, the
       ICE OSLC 287(g) group (OSLC) has taken aggressive steps to
       ensure accuracy in data collection, with a follow-up process that
       includes the dissemination of monthly encounter statistics to the
       appropriate Special Agent-in-Charge (SAC) and Field Office
       Director (FOD) field offices for data quality reviews. OSLC is
       also working towards developing its performance measures in
       coordination with the Office of Budget Performance and Planning
       (OBPP). These measures require the collection of monthly data for
       one fiscal year to establish a baseline to sufficiently analyze the
       performance of each 287(g) program. OSLC has been collecting
       monthly data for FY 2010, and will have a base line by the end of
       September. This will allow OSLC to report on its performance for
       the first quarter of FY 2011. These changes were initiated in the
       timeliest fashion with the intention of strengthening management
       controls of the program and improving oversight of the program.

       Based on ICE’s actions to take timely and appropriate actions to
       implement OIG recommendations, ICE requests this
       recommendation be considered Resolved and Closed.


        The Performance of 287(g) Agreements Report Update 


                              Page 6

                           OIG Evaluation: The intent of this recommendation is for ICE to
                           focus on the remaining 28 open recommendations outlined in our
                           March 2010 report in a timely and appropriate manner. While the
                           actions proposed by ICE are intended to strengthen management
                           controls and improve oversight of 287(g) operations, they do not
                           fully address all recommendations included in our prior report.
                           This recommendation will remain unresolved and open as ICE
                           continues its efforts to resolve the remaining 28 open
                           recommendations from our previous report.


           Management Controls Over Funds Allocated For 287(g)
           Inspections Need to Be Established
                   In our prior review, we noted improvements in 287(g) program operations
                   based on reviews conducted by the 287(g) Inspections Group within OPR.
                   287(g) program reviews are designed to assess conformance with
                   conditions of the MOA between ICE and LEA, provide OSLC and ICE
                   management with feedback on the administration of the 287(g) program,
                   and determine whether any detainee rights have been violated.

                   Given the sensitivity of the 287(g) program and the 287(g) Inspections
                   Group’s success in identifying issues for management attention, we
                   recommended in our prior report that ICE adopt a more aggressive review
                   process. Of the total amount appropriated for the 287(g) program in the
                   Consolidated Security, Disaster Assistance, and Continuing
                   Appropriations Act of 2009, Congress specifically earmarked $5 million in
                   the accompanying conference report for 287(g) compliance reviews. We
                   conclude that challenges encountered in (1) reconciling information such
                   as payroll data with staffing plans, (2) reviewing inadequate financial
                   records, and (3) analyzing incomplete data provided by ICE have resulted
                   in insufficient evidence for us to make a determination regarding the
                   appropriateness of expenditures claimed against these funds. Therefore,
                   there is a potential that ICE may be in violation of the Purpose Statute,
                   which requires that appropriations be used only for their intended
                   purposes, and the Anti-deficiency Act, which prohibits agencies from
                   spending in excess of available appropriations. 6

                           287(g) Inspections Group Funding Allocation

                           According to OMB Circular A-123, “Management Responsibility
                           for Internal Control,” management is responsible for developing

6
    31 U.S.C. 1301 and 31 U.S.C. 1341.


                            The Performance of 287(g) Agreements Report Update 


                                                  Page 7

and maintaining effective internal controls to ensure that resources
are used consistent with agency missions. In addition, internal
controls must be established that reasonably ensure that funds and
other assets are safeguarded against waste, loss, unauthorized use,
or misappropriation.

In FY 2009, Congress allocated $5 million to OPR specifically for
conducting compliance reviews. In FY 2010, OPR received
$6.046 million to facilitate 287(g) program reviews. As part of
this review, our objective was to confirm the validity of
expenditures against those funds. We made numerous requests for
specific program funding data, and received varying explanations
from program officials regarding the absence of data related to
staffing, payroll, and other expenses charged against 287(g)
program funds. OSLC program managers eventually explained
that there was no process to ensure that all OPR field agents being
paid from or supported by 287(g) funds were actually conducting
reviews that specifically aligned with the 287(g) mission. In the
absence of internal controls and supporting documentation to
monitor and track the use of program resources, there is no
assurance that funds allocated to the 287(g) program were used as
intended.

The ICE Office of Budget and Program Performance (OBPP)
allots 287(g) funds as part of the overall appropriated budget for
each ICE program. According to OBPP officials, funds are
apportioned quarterly, based on approved spend plans that OBPP
reviews and revises jointly with the affected program area and
OSLC at the end of each quarter. OPR’s Mission Support Unit
(MSU) submits spend plans for 287(g) inspections that identify
projected operational costs. OBPP’s financial management system
uses a unique project code that allows OBPP and OSLC to monitor
allotments and expenditures against 287(g) funds. OBPP officials
stated that they compile daily 287(g) Status of Funds Reports for
OSLC to use in following up with affected programs when
discrepancies occur.

We requested financial and personnel information for FYs 2008 to
2010 for the 287(g) Inspections Group. Since Congress allocated
$5 million in FY 2009 specifically for compliance reviews
conducted by OPR, we requested additional financial information
regarding obligations and expenditures for FY 2009 to support the
use of 287(g) funds. However, no data for FY 2008 were
provided, and only partial data for FYs 2009 and 2010 were
received.


The Performance of 287(g) Agreements Report Update 


                      Page 8

As illustrated in Table 2, documentation provided by OBPP
showed that of the $5 million allocated in FY 2009 for compliance
reviews, OPR obligated $4,420,648 for compliance review
expenses, and expended $424,762 for service-wide costs, and
$13,000 against FY 2009 obligations. These expenses and
obligations total $4,485,410. The remaining $141,590 has not
been expended or obligated.
 Table 2: FY 2009 287(g) Funds Obligated or Expended
   Object Class:                                       Amount
   Compliance Review Expenditures:
        Payroll                                         3,059,239
        Permanent Change of Station Moves                 240,583
        Travel and Transportation of Things               455,649
        Contracts                                         218,305
        Supplies and Utilities                             65,400
        Equipment                                         381,472
        Object Class Total                             $4,420,648
   Service-wide Costs                                    $424,762
   Expenditures-to-date Against FY2009
   Obligations                                            $13,000
   Unobligated                                           $141,590
   Total                                               $5,000,000

We requested additional information from OBPP, including
supporting documentation for compliance review expenditures,
and definitions for items within each object class category;
however, we either did not receive a response or were informed
that the requested information was not available. In addition,
OBPP officials stated that ICE’s financial management system
does not allow for specific expenses to be tracked to individual
staff members.

To determine the accuracy of the cost information provided, we
attempted to calculate an approximate cost of a 287(g) compliance
review for a specific object class category identified in Table 2.
We selected Travel and Transportation of Things, where ICE
documentation showed that a total of $455,649 was obligated.

In FY 2009, OPR inspected 20 program sites. Five of these
program sites were located within driving distance of OPR
headquarters in Washington, DC. Staffing records provided by
OPR showed that, excluding the five sites, the equivalent of 72


The Performance of 287(g) Agreements Report Update 


                      Page 9

                          staff members conducted 15 287(g) reviews. Therefore, we
                          divided OBPP’s budgeted amount for Travel and Transportation of
                          Things ($455,649) by OPR staffing records for the number of

                          equivalent staff members (72) to determine OBPP’s estimate of
                          $6,329 per person for travel related to compliance reviews. We
                          did not receive documentation to support the calculation for this
                          estimate.

                          In contrast, we calculated travel expenses of approximately $2,300
                          per person for each inspection. We selected the most costly
                          inspection site location, and obtained related costs for the
                          government contracted airfare, lodging fees, and per diem rates. 7

                          We requested information on the 287(g) Inspections Group’s FY
                          2010 budget of $6.046 million, and were provided with spend
                          plans that showed projected costs for program expenditures;
                          however, we were unable to determine whether these expenditures
                          aligned with 287(g) objectives. MSU officials said that the 287(g)
                          Inspections Group and the Office of Detention Oversight (ODO)
                          have mutually supporting missions that are not subject to funding
                          or mission exclusivity; therefore, spend plans did not segregate
                          funds used solely for 287(g) inspections.

                          OPR Personnel Inappropriately Supported by 287(g) Funds

                          According to ICE officials, OPR has been increasing its workforce
                          since the inception of the 287(g) inspection program. However,
                          due to conflicting data from ICE officials, we were unable to
                          determine the number of OPR personnel working on 287(g) related
                          assignments, or personnel whose salaries were paid from 287(g)
                          program funds.

                          ICE uses the Table of Organization Position System (TOPS) for
                          hiring data and projections, the Federal Financial Management
                          System financial accounting system to track budget expenditures
                          and balances, and the National Finance Center for payroll services.
                          Our review of documents provided from these systems showed

7
 We calculated the approximate travel cost for the inspection at the Arizona Department of Corrections
because this was one of the most expensive site visits based on location and per diem rates in effect from
June 8 to 12, 2009. The roundtrip airline city pair fare from Washington, DC to Phoenix, AZ in FY 2010
was $1,318 (figures not available for FY 2009). The maximum GSA lodging rate is $89 each day, or $534
for six days (plus additional taxes). The per diem for meals and incidental expenses is $71 each day, or
$426 for six days. Travel expenses as we calculated should be approximately $2,278 per person for six
days.


                           The Performance of 287(g) Agreements Report Update 


                                                 Page 10

conflicting information that precluded reconciling employees who
actually participated in 287(g) inspections with employees who
were actually paid from 287(g) inspection funds.

The TOPS report showed that OPR had 19 full-time staff in FY
2009 who were to be paid from 287(g) inspection funds; however,
six of those positions were not shown on the FY 2009 payroll
reports. Payroll reports listed 38 individuals whose salaries were
either partially or entirely paid from 287(g) funds, with an average
of 9 pay periods for each of these field agents paid from 287(g)
inspection funds.

A review of completed inspection reports with names of
contributing staff members showed that only 4 of the 19 staff
members listed on the TOPS report actually participated in 287(g)
inspections in FY 2009. However, 13 of the 19 staff members on
the TOPS report were paid from 287(g) inspection funds. Payroll
reports showed that only 9 of the 38 employees - 6 members of the
287(g) Inspections Group and 3 field agents - paid from 287(g)
inspection funds actually conducted at least one compliance
review.

An MSU official explained that 287(g)-funded field agents have
inspection responsibilities as collateral duties. Therefore, man-
hours, and not positions, are used to budget for compliance
inspections. Field agents’ individual man-hours are collectively
totaled to represent the equivalent of full-time employees. For
these 38 individuals, a total of 33,983 man-hours were paid from
287(g) inspection funds. Using a standard work year of 1,928
hours, 33,983 hours equates to approximately 18 full-time
employees.

We were unable to obtain records to reconcile man-hours charged
to 287(g) inspection funds with the actual number of hours that
field agents performed 287(g) inspection-related duties. However,
we question whether the equivalent of 18 full-time employees, or
33,983 man-hours, were used to support 287(g) compliance
reviews.

To guard against potential violations of the Purpose Statute and the
Anti-Deficiency Act, ICE must ensure that funds are not spent in
excess of appropriations, but are spent in accordance with the
purpose and limits of each appropriation. However, ICE has not
implemented procedures to ensure the integrity and accountability



The Performance of 287(g) Agreements Report Update 


                     Page 11

     over 287(g) program resources. As a result, we were unable to
     confirm that these resources were used appropriately.


Recommendations
     We recommend that Immigration and Customs Enforcement:

     Recommendation #2: Establish an appropriate structure along
     with sufficient internal controls to manage and oversee 287(g)
     funds to ensure appropriate use.

     Recommendation #3: Develop a process to ensure that adequate
     supporting documentation is maintained to track and monitor the
     allocation, obligation, and expenditure of funds.

     Recommendation #4: Segregate funds by program area.

     Recommendation #5: Conduct a review of 287(g) funds allocated
     for inspections to ensure that these funds were used as intended.

     Recommendation #6: Re-evaluate the current staffing strategy of
     using man-hours instead of dedicated positions for conducting
     287(g) inspections.


Management Comments and OIG Analysis
     ICE Response: ICE concurred with Recommendation 2.

     ICE Office of the Chief Financial Officer (OCFO) will establish
     the budget structure so that the Office of Professional
     Responsibility (OPR) can implement a new 287(g) program office
     structure. The new structure will be fully implemented by October
     1, 2010.

     A certified program manager (PM) position to oversee all aspects
     of the OPR 287(g) program was announced (Vacancy
     Announcement LAQ-OPR-386239-MD-330) on September 17,
     2010. The PM will oversee the planning, direction, and timely
     execution of the program; determine goals and objectives; working
     with OBPP, develop measures that evaluate performance; make
     recommendations for program improvement; manage all resources;
     and manage organizational changes as well as changes to the
     content of the program.


     The Performance of 287(g) Agreements Report Update 


                          Page 12

The new structure includes a staff of ten Special Agents working
from OPR field offices who are solely dedicated to the 287(g)
program. These agents will work in alignment with the staff of
twelve 287(g) personnel at OPR Headquarters and report to the
PM.

Based on ICE’s establishment of a new structure for the management
and oversight of 287(g) funds to ensure appropriate use, ICE
requests this recommendation be considered Resolved and Closed.

OIG Evaluation: The new structure for the management and
oversight of 287(g) funds as described in ICE’s response does not
clearly address management and oversight of 287(g) funds by
OBPP and the certified program manager. In addition, ICE did not
describe internal controls in its proposed budget structure that
provided assurance that funds will be used as intended. The
response also does not define the alignment between Special
Agents and personnel at OPR Headquarters as part of the new
structure. This recommendation will remain unresolved and open
until ICE provides clarification regarding its proposed structure,
with associated internal controls to ensure appropriate management
over 287(g) funds.

ICE Response: ICE concurred with Recommendation 3.

A Fiscal Year (FY) 2011 spend plan was formulated in conjunction
with an operational plan that outlines the requirements and funding
needed in support of the ICE OPR 287(g) program. On October 1,
OCFO will establish a specific organizational code for the 287(g)
program office that ensures only payroll and general expenditures
in support of the program are charged to the 287(g) program. The
OPR PM will be charged with tracking all obligations and
expenditures of 287(g) funds to ensure the funds are used for the
appropriate and stated purpose.

Based on ICE’s development of a process to ensure that adequate
supporting documentation is maintained to track and monitor
funds, we request this recommendation be considered Resolved and
Closed.

OIG Evaluation: The FY 2011 spend plan and operational plan
ICE cites in its response do not address the maintenance of
adequate supporting documentation to track the allocation,
obligation and expenditure of 287(g) funds. Based on what we


The Performance of 287(g) Agreements Report Update 


                     Page 13

learned during our fieldwork, spend plans are projections of
expenditures that may be needed for the operation of the 287(g)
program, and do not provide sufficient documentation to support
monies actually spent. Efforts to establish an organizational code
strictly for 287(g) payroll and general expenditures, and designate
a program manager to track all obligations and expenditures should
assist ICE in tracking the allocation, obligation and expenditure of
funds. However, a process for maintaining documentation to
support all expenditures of 287(g) funds is needed. This
recommendation will remain unresolved and open until ICE
establishes such a process.

ICE Response: ICE concurred with Recommendation 4.

For FY 2011, ICE has established a specific organizational code in
its financial management system that allows the 287(g) program
office to ensure only payroll and general expenditures in support of
the program are charged to the 287(g) program. The PM will be
charged with tracking all obligations and expenditures (to include
payroll) to ensure they are used for the appropriate and stated
purpose.

OIG Evaluation: At the time of our fieldwork, ICE had a unique
project code for 287(g) program expenditures that allowed OBPP
and OSLC to monitor 287(g) funds. However, the spend plan ICE’s
Mission Support Unit provided did not distinguish between 287(g)
funding from the Office of Detention Operations. This
recommendation will remain unresolved and open until ICE
develops a clearly defined process to ensure that 287(g) funds are
segregated from other ICE program areas. This should include a
description of how the establishment of a specific organizational
code will serve as an appropriate means of tracking 287(g)
expenditures in comparison to the unique project code that was
used during our fieldwork.

ICE Response: ICE concurred with Recommendation 5.

ICE has completed a comprehensive review of 287(g) funds
expenditures for FY 2009 and FY 2010. All 287(g) program
requirements have been properly coded to either the 287(g)
program or OPR’s base program funding for FY 2010. Further
analysis of FY 2009 expenditures has been completed and the ICE
Burlington Finance Center will be processing actions that will
result in the FY 2009 expenditures being an accurate reflection of



The Performance of 287(g) Agreements Report Update 


                     Page 14

costs incurred in support of the 287(g) program. These actions and
adjustments will be completed by September 25, 2010.

Also, an FY 2011 spend plan was formulated in conjunction with
an operational plan that outlines the requirements and funding
needed in support of the 287(g) program. OCFO will monitor
budget performance and the OPR PM will be charged with
executing all budget obligations and expenditures of 287(g) funds
to ensure the funds are used for the appropriate and stated purpose.

Based on the comprehensive review conducted and reallocation of
funds, ICE requests this recommendation be considered Resolved and
Closed.

OIG Evaluation: This recommendation is resolved and open
pending receipt of the results of ICE’s review of 287(g) program
expenditures for FYs 2009 and 2010. This should also include any
adjustments that reflect how 287(g) funds were spent.

ICE Response: ICE concurred with Recommendation 6.

As a result of a re-evaluation, ICE will use dedicated positions in
support of the 287(g) program, and will no longer use the man-
hours model. OCFO will monitor budget performance and the
OPR PM will be charged with executing all budget obligations and
expenditures, including payroll, to ensure funds are used for the
appropriate and stated purpose. Additionally, ICE OPR created and
implemented an FY 2011 operational plan that outlines the
program requirements and resources needed to execute the plan.

Based on our re-evaluation and decision to use dedicated positions in
its staffing strategy, ICE requests this recommendation be considered
Resolved and Closed.

OIG Evaluation: This recommendation is resolved and open
pending verification of dedicated positions in support of the 287(g)
program. ICE’s re-evaluation of its staffing strategy and
subsequent decision to use dedicated positions in lieu of man-hours
in support of the 287(g) program satisfies the intent of this
recommendation.




The Performance of 287(g) Agreements Report Update 
 


                      Page 15
 

Challenges for the 287(g) Inspections Group Need to Be Mitigated
     Standards for internal control require all personnel to posses and maintain
     a level of competence that allows them to accomplish their assigned
     duties. The standards further require that management identify the
     appropriate knowledge and skills needed for jobs, and provide the
     necessary training for these jobs. We determined that (1) creative staffing
     methodologies provide an appearance of sufficient and competent staff to
     conduct required 287(g) compliance reviews, (2) field staff members
     trained to conduct 287(g) compliance reviews are not always available to
     participate when needed, and (3) hiring for 287(g) inspections has not
     been effective because filling vacancies at the field level is a higher
     priority. Because of the sensitivity of the 287(g) program and the need to
     ensure that program objectives are achieved, the ability of the 287(g)
     Inspections Group to conduct appropriate compliance reviews should be
     an ICE priority.

            Several Barriers May Reduce the Effectiveness of the 287(g)
            Inspections Group in Achieving Its Mission

            287(g) compliance reviews can help ensure that program goals are
            achieved. As part of our review, we observed an inspection
            conducted at a 287(g) program site that had been in operation for
            two years.

            The field work consisted of 19 interviews with ICE and LEA
            officials, observations, and file reviews to assess compliance with
            terms of the MOA and related ICE policies. The team identified
            several program deficiencies, and made recommendations to ICE
            field office staff and LEA officials. OPR was in the process of
            finalizing the inspection report at the end of our field work.

            ICE needs to ensure that the 287(g) Inspections Group serves as a
            resource by minimizing barriers that reduce the effectiveness of the
            inspection review process.

            Staffing

            Insufficient staffing has the potential to prevent the 287(g)
            Inspections Group from the timely completion of their assigned
            reviews. At the time of our review, the 287(g) Inspections Group
            included four full-time staff dedicated to 287(g). To augment its
            staff, the 287(g) Inspections Group relies on staff members from a


             The Performance of 287(g) Agreements Report Update 


                                  Page 16

pool of 25 OPR field agents trained to conduct compliance
reviews.

We identified instances in which requests for field agents to assist
with 287(g) compliance inspections were denied because field
agents were unavailable or had scheduling conflicts. In these
situations, agents who were ultimately assigned to the inspection
team may be unfamiliar with the 287(g) program, and often have
no training or experience to assess LEAs compliance with MOAs.

Before we started our review, we notified OPR of our plans to
accompany the review team on a specific inspection site of our
choice. For the 287(g) compliance inspection that we observed,
two members were a part of the core inspection team, and two
members were from the pool of field agents who had attended the
287(g) training. The other team member was a field agent who
had no experience conducting 287(g) inspections, and had been
sent to replace a 287(g) field agent who was in the pool.

The Current Structure of the 287(g) Inspections Group Needs to Be
Analyzed

In June 2009, OPR conducted a 287(g) inspection training session
for 25 field agents to establish a pool of field agents to assist with
287(g) inspections. Our review of documents and related staffing
reports showing staff members on 287(g) inspections indicated that
the 25 field agents who completed the training did not consistently
provide assistance with compliance inspections.

Field offices receive notification of upcoming inspections and
staffing requirements several weeks before the actual inspection
date. However, we identified several instances of requests for
assistance being denied. In addition, since field agents in the pool
report to their respective Resident Agent in Charge (RAC),
assisting with compliance inspections is not considered a priority.

Because of the difficulties obtaining assistance from the field, the
Assistant Special Agent in Charge (ASAC) or Deputy Special
Agent in Charge (DSAC) is notified of the situation when a RAC
will not release an agent to assist with an inspection. This has
occasionally resulted in an agent being provided. In those
circumstances, agents provided usually were not trained in the
287(g) program, or familiar with the inspection process.




The Performance of 287(g) Agreements Report Update 


                     Page 17

The 287(g) Inspections Group has filled seven of twelve full-time
positions. However, four of these positions include a unit chief, an
agent, and two analysts who do not perform inspections. The other
three positions were filled by two agents and an analyst who
actually conduct the compliance inspections on a full-time basis.

Four of the five vacant headquarters positions are GS-14 1811
agent positions. An OPR official described difficulties in filling
the vacant 1811 positions because vacancies in the field are usually
a higher priority. In addition, fewer agents want to come to
headquarters as part of the 287(g) Inspections Group due to the
potential of limited career advancement opportunities.

Consideration needs to be given to the current structure of the
287(g) Inspections Group. This structure, including reporting lines
and field employees who are not fully dedicated to conducting
287(g) inspections, and the use of man-hours instead of dedicated
positions, may not result in an optimum use of resources. The
structure also minimizes the importance of inspection efforts by
not ensuring the availability of an appropriate level of staff to
conduct the reviews. OPR would benefit if workforce allocations
were realigned to ensure a more dedicated staff for performing
287(g) compliance reviews.

Status of Corrective Actions Needs to Be Provided to the 287(g)
Inspections Group

Corrective actions taken by management to resolve findings and
recommendations are an essential element for improving program
operations. An agency should establish a system that provides for
a complete record of the action taken to ensure prompt resolution
and implementation of recommendations. ICE OPR conducts
inspections of the 287(g) program to determine ICE and LEA
compliance with MOAs, and provides recommendations for
improvement. However, corrective actions taken in response to
these recommendations are not formally communicated to the
287(g) Inspections Group. As a result, there is less assurance that
follow-up on deficiencies disclosed during previous compliance
reviews will be conducted during future inspections.

In March 2009, OSLC issued guidance, Procedures for Addressing
OPR 287(g) Reports, describing steps that OSLC should take to
ensure prompt resolution of inspection report recommendations or
issues of concern. According to an OSLC official, a detailed
evaluation of OPR inspection findings is completed as inspection


The Performance of 287(g) Agreements Report Update 


                     Page 18

    reports are finalized. OSLC tracks the inspection findings and
    recommendations with the corrective actions. OSLC sends
    inspection report findings through appropriate channels to the
    affected field office manager, who responds to OSLC with the
    corrective actions taken to resolve the findings.

    Our review of the 287(g) OPR Review Data tracking system
    indicated that from September 2009 to July 2010, the 287(g)
    Inspections Group made 64 recommendations, of which 44 have
    been closed. In FY 2009, three outstanding recommendations
    were referred to DHS’ Office of Inspector General, or to ICE HSI,
    and are still pending. The remaining 17 recommendations remain
    open and have been referred to ICE field offices.

    An ICE official said that there is no process to inform the 287(g)
    Inspections Group of corrective actions taken on inspection-related
    recommendations, or even when the recommendations have been
    resolved. This precludes verifying corrective actions taken and
    determining whether desired results were achieved.


Recommendations
    We recommend that Immigration and Customs Enforcement:

    Recommendation #7: Re-evaluate the current staffing strategy
    for the 287(g) Inspections Group, including reporting lines and
    field employees who are not fully dedicated to conducting 287(g)
    inspections.

    Recommendation #8: Develop a process to staff inspections with
    field agents who have sufficient knowledge of the 287(g) program
    and the necessary skills for effective performance.

    Recommendation #9: Ensure that staff members paid from
    287(g) funds actually participate in 287(g) compliance reviews.

    Recommendation #10: Ensure that the 287(g) Inspections Group
    is notified of actions taken as a result of recommendations in their
    inspection reports.

    Recommendation #11: Develop a process to ensure that planned
    inspections include a review of actions taken to address previously
    identified deficiencies and other issues, as needed.



     The Performance of 287(g) Agreements Report Update 


                          Page 19

Management Comments and OIG Analysis
     ICE Response: ICE concurred with Recommendation 7.

     OCFO established the budget structure so that OPR can implement a
     new 287(g) program office structure. This new structure will be
     fully implemented by October 1, 2010.

     As detailed in our response to Recommendation 2, the PM position
     will oversee all aspects of the 287(g) program and was announced
     (Vacancy Announcement LAQ-OPR-386239-MD-330) on
     September 17, 2010.

     Also, as discussed earlier, the new structure includes a staff of ten
     Special Agents solely dedicated to the 287(g) program and
     working from OPR field offices.

     Based on ICE’s establishment and implementation of a new 287(g)
     program office structure, we request this recommendation be
     considered Resolved and Closed.

     OIG Evaluation: This recommendation is resolved and open
     pending our receipt of the new staffing strategy, including
     reporting lines and field employees dedicated to conducting 287(g)
     inspections.

     ICE Response: ICE concurred with Recommendation 8.

     The ICE has planned a training session for all new 287(g)
     employees during the first quarter of FY 2011. Additionally, by
     having a permanent staff dedicated to conducting 287(g)
     inspections, staff members will be able to receive on-the-job
     training from other 287(g) employees during the first half of FY
     2011 and beyond.

     Based on ICE’s development of a process to ensure that inspections
     are staffed with field agents who have sufficient knowledge of the
     287(g) program, and possess the necessary skills for effective
     performance, ICE requests this recommendation be considered
     Resolved and Closed.

     OIG Evaluation: This recommendation is resolved and open
     pending our receipt and evaluation of the planned agenda for the
     FY 2011 training session.


     The Performance of 287(g) Agreements Report Update 


                          Page 20

ICE Response: ICE concurred with Recommendation 9.

Under the new ICE inspections structure, all staff members paid
from 287(g) funds will be dedicated to the 287(g) program.

As we detailed in our response to Recommendation 2, OFCO will
oversee budget execution and OPR PM will oversee execution of
the 287(g) program.

Based on the new structure, ICE will ensure that staff paid from
287(g) funds actually participate in 287(g) compliance reviews.
Therefore, we request this recommendation be considered Resolved
and Closed.

OIG Evaluation: This recommendation is resolved and open
pending our receipt of ICE’s process for ensuring that only dedicated
287(g) staff will be paid from 287(g) funds.

ICE Response: ICE concurred with Recommendation 10.

As of September 2010, ICE OSLC began to provide OPR the
responses from the field offices regarding issues, deficiencies,
concerns and recommendations highlighted in 287(g) inspection
reports. The OPR 287(g) Inspections Section will monitor and
document these responses and validate the stated corrective actions
during the next scheduled inspection or during a follow-up
inspection, if one is warranted.

Based on our actions to ensure the ICE 287(g) Inspections Group is
notified of actions taken as a result of recommendations in their
inspection reports, ICE requests this recommendation be considered
Resolved and Closed.

OIG Evaluation: This recommendation is resolved and closed. .

ICE Response: ICE concurred with Recommendation 11.

ICE OPR 287(g) Inspections Section will review the field actions
taken in response to previously identified deficiencies and issues
prior to its next scheduled inspection, and verify their completion
during the inspection process. If a follow-up inspection is
warranted, one will be conducted by the OPR 287(g) Inspections
Section.




The Performance of 287(g) Agreements Report Update 


                     Page 21

          Based on our development of a process to ensure that planned
          inspections include a review of actions taken to address previously
          identified deficiencies and other issues, as needed, ICE requests this
          recommendation be considered Resolved and Closed.

          OIG Evaluation: This recommendation is resolved and open
          pending our receipt and review of documentation describing the
          follow-up inspection process.


ICE and LEA Compliance With Revised MOA Cannot Be
Readily Determined
          The MOA defines the scope and limitations of the authority to be
          designated to the LEA, and authorizes participating officers to
          exercise a range of immigration enforcement activities that differ
          in terms of the program model and function. In July 2009, ICE
          released a new template for 287(g) agreements to replace existing
          agreements.

          A primary revision to the MOA is the addition of a Standard
          Operating Procedure (SOP) Template that establishes uniform
          general procedures for the implementation and oversight of the
          287(g) program. Specifically, the SOP describes (1) arrest priority
          levels, (2) supervision of the TFO and detention models, (3) data
          collection, and (4) training. Both MOAs also include an appendix
          outlining the complaint procedure. We focused on these areas to
          determine the potential effects that the revised MOA may have on
          improving 287(g) program operations.

          287(g) Arrest Priority Levels

          Our initial 287(g) report noted that ICE’s primary performance
          measure for the 287(g) program is the number of aliens
          encountered by 287(g) officers. However, this performance
          measure did not (1) align with ICE’s three-tier priority level
          system for arrest and detention of aliens, or (2) provide a focus on
          aliens who pose a threat to public safety or are a danger to the
          community, which, according to ICE, is a primary purpose for
          their collaboration with LEAs. In this review, we determined that
          ICE should develop performance measures with goals for
          determining 287(g) program success in removing criminal aliens
          who pose a threat to public safety or a danger to the community.




          The Performance of 287(g) Agreements Report Update 


                               Page 22

The revised MOA template identifies three categories of aliens that
are a priority for arrest and detention. The highest priority, Level
1, consists of aliens who have been convicted of or arrested for
major drug or violent offenses. Level 2 includes aliens who have
been convicted of or arrested for minor drug or property offenses.
Level 3 includes aliens who have been convicted of or arrested for
other offenses.

According to the MOA template, participating LEAs under each
model must identify and remove criminal aliens based on the three
priority levels for arrest and detention. The MOA also requires
LEAs to use their 287(g) program in either the TFO Model or
Detention Model according to ICE priorities.

A December 2009 memorandum, Monitoring the Exercise of
287(g) Authority, advised all SAC and Field Office Directors
(FOD) of their responsibility in ensuring that LEA partners adhere
to the terms of the revised 287(g) MOA, and exercise the delegated
authority consistent with ICE priorities. To meet this requirement,
ICE requires LEAs to submit monthly data showing all encounters
within each priority level. ICE monitors the data to determine
whether LEA arrest activities are consistent with ICE priority
levels. However, we did not identify any measures that SACs or
FODs should use to compare LEA encounter, arrest, and removal
actions to ICE priority levels.

Using data submitted by LEAs, each SAC and FOD provides a
monthly report to HSI and ERO, respectively, describing how the
287(g) program is working in regard to ICE arrest priorities. If the
program is not operating according to ICE priorities, the memo
should also include actions taken by the SAC or FOD to improve
LEAs’ compliance. However, we did not identify a follow-up
process to ensure that any actions taken by an LEA actually result
in better adherence to ICE priorities.

Based on the monthly reports from SACs and FODs, OSLC
prepares a quarterly report, Adherence to ICE Priorities, for both
TFO and detention models to show statistical data on alien
encounters by priority level. ICE began tracking statistics by
priority level in December 2009.

We reviewed the April 2010 quarterly report which included ICE
arrest for the first half of FY 2010. During this period, there were
a total of 757 TFO encounters, of which 83 (11%) were for Level 1
offenses and 158 (21%) were for Level 2 offenses. For the same


The Performance of 287(g) Agreements Report Update 


                     Page 23

period, there were a total of 25,908 JEO encounters, of which
6,039 (23%) were for Level 1 offenses, and 6,317 (24%) were for
Level 2 offenses

Table 3 shows the total number of TFO and JEO encounters for the
287(g) program during the first three quarters of 2010. Level 1,
Level 2, and Level 3 encounters represented 23%, 26%, and 19%,
respectively, of total encounters.
Table 3. 287(g) Encounters by Priority Arrest Level
   Priority Level                     FY2010 Encounters
                         1st Qtr      2nd Qtr   3rd Qtr   Total
Level 1                   3,064        3,199     3,266     9,529
Level 2                   3,002        3,756     4,031    10,789
Level 3                   2,102        2,548     2,990     7,640
Traffic - DUI             1,870        1,729     1,744     5,343
Traffic - Other           2,051        2,268     2,226     6,545
Other Criminal             101           35        5        141
None                       146          160       188       494
No Data                     39           54        8        101
Totals                   12,375       13,749    14,458    40,582
Source: Office of State and Local Coordination

ICE officials developed a revised MOA in part to align 287(g)
local operations with major ICE enforcement priorities –
specifically, the identification and removal of criminal aliens. ICE
maintains data on program encounters, arrest, and removal
statistics for the 287(g) program, as shown in Figure 1.

Figure 1 shows aliens encountered, arrested, and subsequently
removed through the 287(g) program in FYs 2008, 2009, and
2010.




The Performance of 287(g) Agreements Report Update 
 


                      Page 24
 

Figure 1: 287(g) Program Encounter, Arrest, and Removal Statistics

   65000
   60000
   55000
   50000
   45000
   40000
   35000                                                                Encounters
   30000                                                                Arrests
   25000                                                                Removals
   20000
   15000
   10000
    5000
        0
                 FY2008                FY2009               FY2010*

*FY 2010 data thru 6/30/2010

However, performance measures that incorporate arrest, detention,
and removals within each of the priority levels have not been
established.

ICE has emphasized the three-tiered arrest priority levels in the
revised MOA. In addition, the process ICE has established for
monitoring the priority level of arrests and removals is a positive
step towards ensuring that LEAs adhere to the MOA. ICE needs to
develop a more comprehensive approach to determine whether the
overall goals of the 287(g) program are being achieved. A
comparative analysis between data collected by ICE, such as
287(g) program encounters, arrest, and removals within each
priority level could provide additional data for ensuring that 287(g)
resources are managed effectively.

We have previously made recommendations for ICE to develop
procedures to ensure that 287(g) resources are allocated according
to ICE’s priority framework. However, in the absence of
performance measures linked to specific program goals, ICE’s
success in identifying and removing criminal aliens cannot be fully
determined.




The Performance of 287(g) Agreements Report Update

                      Page 25
287(g) Supervision

Similar to the previous MOA, the revised MOA SOP template
provides a general outline of ICE supervisory responsibilities for
directing 287(g) program activities. The revised MOA also
includes this language: “To establish supervisory and other
administrative responsibilities, the SAC/FOD will specify
supervisory and other administrative responsibilities in an
accompanying agreed-upon SOP.”

At the sites that we visited, 287(g) officers were supervised by
lieutenants and sergeants who had received 287(g) training.
Because the detention facilities and police departments operate
continuously, at least one LEA supervisor was on duty at all times.
We were informed that the LEA supervisors were able to contact a
287(g) program ICE supervisor when needed for any immigration-
related information.

In our prior report, we made several recommendations for ICE to
establish guidance and ensure consistency in 287(g) supervision, as
well as to enhance program oversight. ICE needs to implement our
recommendations, and continue making efforts to ensure effective
supervision of 287(g) officers and immigration enforcement
operations.

287(g) Training

In our March 2010 report, we recommended that ICE ensure that
basic training for 287(g) students includes coverage of MOAs, and
public outreach and complaint procedures. We also determined
that ICE instructors were not consistently covering training
modules on MOAs, and public outreach and complaint procedures
even though this training was included in the curriculum. In
addition, the 287(g) training program should be enhanced to
include an appropriate level of coverage on immigration benefits,
asylum, and victim and witness protections.

The MOA specifies that ICE will provide Immigration Authority
Delegation Program (IADP) training tailored to the immigration
functions to be performed. The current curriculum includes the
following subject areas which were also in effect during our prior
review:

       •    Terms and limitations of the MOA
       •    Scope of immigration officer authority


The Performance of 287(g) Agreements Report Update 


                     Page 26

       •	   Relevant immigration and nationality law
       •	   Document examination
       •	   ICE Use of Force policy
       •	   Civil rights laws
       •	   Department of Justice “Guidance Regarding the Use of
            Race by Federal Law Enforcement Agencies”
       •	   Public outreach and complaints procedures
       •	   Liability issues
       •	   Cross-cultural issues
       •	   Obligations under federal law and the Vienna
            Convention on Consular Relations

According to ICE officials, recent changes have been made to the
287(g) basic training program. Specifically, ICE extended the
immigration documentation examination from six to 12 hours. In
addition, two days are dedicated to scenario-based instruction
where role players, acting as aliens, are processed by the
participants. However, these changes have not impacted those
areas of the curriculum that we identified in our prior report as
needing improvements.

287(g) Program Training for LEA Supervisors

Our prior review determined that LEA supervisors would be better
positioned to provide an effective operating environment for
287(g) officers if they understood the 287(g) program, and the
duties and responsibilities of their staff who are participating in the
program. At that time, ICE was considering providing LEA
supervisor training to improve operating conditions.

In April 2010, we attended the OSLC 2010 LEA Training
Conference for LEA managers with supervisory responsibility over
287(g) officers. The purpose of the conference was for ICE to
communicate information about the 287(g) program, and for LEAs
to share information with representatives from other 287(g)
participating jurisdictions. Representatives from 55 of the 71
active 287(g) jurisdictions attended the conference. The
conference agenda included MOA review, 287(g) policies and
procedures, the Enforcement Case Tracking System (ENFORCE),
LEA inspections, civil rights and civil liberties, media relations,
and TFO and Detention Models best practices.

LEA participants told us that they thought the training was
beneficial, and would prefer it to be an annual event. However,
ICE officials said they were not certain whether LEA supervisory

The Performance of 287(g) Agreements Report Update 


                     Page 27

training would continue even though they believed it benefited the
program. We included a recommendation in our prior report for
ICE to develop training and provide basic program information for
LEA managers to increase their understanding and encourage
support of 287(g) activities.

Data Collection

The prior MOA required participating jurisdictions to track data
and statistical information about implementation of the program.
The new MOA does not require the collection of any data other
than information from the ENFORCE database. However, ICE
reserves the right to request that specific tracking or arrest data be
maintained.

Our prior report includes a recommendation for ICE to establish
collection and reporting standards that provide objective data to
increase monitoring of the methods participating jurisdictions use
in carrying out 287(g) functions and their effect on civil liberties.
We believe such information would provide additional means to
monitor program operations. ICE did not concur with this
recommendation, and responded that they will conduct an
assessment of the goal of this recommendation to ensure that ICE’s
287(g) partners protect the civil liberties of every individual they
encounter.

Accuracy of Data in ENFORCE

According to the MOA, ENFORCE is the primary processing
system for alien removals, and is the main resource for statistical
information for the 287(g) program. In addition, ICE and 287(g)
officers use ENFORCE as the primary system to collect alien
arrest data. ICE officials told us that data from ENFORCE is used
to determine LEAs compliance with ICE arrest priorities.

The MOA requires ICE supervisors to conduct audits of
ENFORCE computer system entries and records made by LEA
officers. When errors are identified, the ICE supervisor should
notify the LEA, and, the LEA is to submit a plan to ensure that
steps are taken to correct, modify, or prevent recurring data entry
errors. However, ICE did not provide guidance for conducting
audits of system entries and records, or for ensuring that the LEAs
have implemented an effective process for maintaining data
integrity.



The Performance of 287(g) Agreements Report Update 


                     Page 28

Based on the monthly statistical data from SACs and FODs, OSLC
prepares a quarterly report, Adherence to ICE Priorities, for both
TFO and Detention Models to show statistical data on alien
encounters by priority level. ICE began tracking statistics by
priority level in December 2009. The April 2010 report included
706 entries that were coded as “no data,” which means that a
record was not completed properly.

A comparison of entries coded as “no data” in FYs 2009 and 2010
shows a significant reduction in improperly completed records.
Table 4 shows 287(g) data for encounters. For FY 2009, 18,828
entries were coded as “no data.” For FY 2010, entries included
under the “no data” code represented less than 1% of total data
entries.

Table 4. 287(g) Encounters by Priority Level
                                      Percentage
                                        of FY
    Encounter                           2009*                            Percentage
       Code            FY 2009*         Total          FY 2010*         of FY 2010*
 Priority Levels
 1, 2, and 3             7,508            16%           27,958             69%
 Traffic                  2,643            6%           11,888             29%
 Other Criminal          18,175           38%            141                0%
 None                      286             1%            494                1%
 No Data                 18,828           40%            101                0%
 FY Total                47,440                         40,582
Source: Office of State and Local Coordination 
 

*Information represents data for first 3 quarters of fiscal year. 
 


Accurate data entry is critical for performance measurements,
resource allocation, and statistical tracking. ICE should continue
to enhance efforts to improve the accuracy and integrity of
statistical data input by the LEAs, and ensure the effectiveness of
actions taken by the SAC or FOD to comply with ICE arrest
priority levels.

287(g) Officers Need to Be Knowledgeable of Complaint
Procedures

Our prior review reported that members of the public were
unaware of the complaint process, and that several past MOAs did
not include details on how to file a complaint. However, as part of
this review, we noted that some LEAs were not fully aware of all
the complaint reporting requirements as outlined in the revised
MOA.


The Performance of 287(g) Agreements Report Update 


                        Page 29

    Appendix B of the MOA requires LEAs to notify ICE OPR and
    their ICE supervisors immediately of any complaints or allegations
    against 287(g) officers that may result in employer discipline,
    criminal investigation or civil lawsuit. Contrary to this
    requirement, an LEA did not report ongoing criminal proceedings
    and legal action to OPR or the local SAC office. Specifically, a
    287(g) officer had resigned because of allegations of misconduct
    that were not related to immigration duties. However, the LEA
    indicated that he did not know that this was a reportable action
    since it was not related to immigration functions.

    The complaint process is a vital tool for ensuring effective
    monitoring of the integrity of 287(g) immigration enforcement
    officials in a highly sensitive environment. Therefore, ICE needs
    to ensure that all 287(g) officers are knowledgeable of all
    complaint procedures.


Recommendations
    We recommend that Immigration and Customs Enforcement:

    Recommendation #12: Establish and implement a comprehensive
    process for determining whether 287(g) program goals are being
    achieved. This should include analyses of encounters, arrests, and
    removal statistics for each priority level.

    Recommendation #13: Establish a follow-up process for SACs
    and FODs to ensure that actions taken by LEAs to improve their
    compliance with ICE priority levels are actually working to
    achieve overall program goals of identifying and removing
    criminal aliens.

    Recommendation #14: Develop a process to review and verify
    the accuracy of ENFORCE system data entries.

    Recommendation #15: Establish a process for ICE supervisor to
    ensure the effectiveness of plans submitted by LEAs for correcting
    errors, preventing recurring data entry errors, and maintaining data
    integrity.

    Recommendation #16: Ensure that 287(g) officers and their
    supervisors are knowledgeable of all complaint procedure
    requirements for notifying appropriate ICE officials of complaints
    or allegations involving the violation of the terms of the MOA, or


     The Performance of 287(g) Agreements Report Update 


                          Page 30

     of any sort that may result in employee discipline or an employee
     becoming the subject of a criminal investigation or civil lawsuit.


Management Comments and OIG Analysis
     ICE Response: ICE concurred with Recommendation 12.

     The ICE OSLC 287(g) group is developing its performance
     measures in coordination with the OBPP. The measures require
     the collection of monthly data for an entire year in order to
     establish a baseline to sufficiently analyze the performance of each


     287(g) program. ICE has been collecting monthly data for FY
     2010, and will have a base line by the end of September. This will
     allow 287(g) to report on the performance for the first quarter of
     FY 2011.

     On December 9, 2009 a memorandum titled “Monitoring the
     Exercise of 287(g) Authority” was signed advising all Special
     Agents in Charge (SACs) and Field Office Directors (FODs) of
     their responsibility for ensuring that law enforcement agency
     (LEA) partners adhere to the terms of the revised 287(g)
     Memorandum of Agreement (MOA) and exercise the delegated
     authority consistent with ICE priorities. This guidance
     memorandum will help to ensure that accurate data is captured.

     Pending ICE’s establishment and implementation of a comprehensive
     process for determining whether its 287(g) program goals are being
     achieved, we request this recommendation be considered Resolved
     and Open.

     OIG Evaluation: ICE’s response does not identify the type of
     data to be collected or the process for analyzing such data. This
     recommendation remains unresolved and open pending ICE’s
     establishment and implementation of a comprehensive process for
     determining whether 287(g) program goals are being achieved.

     ICE Response: ICE concurred with Recommendation 13.

     ICE established a follow-up process for SACs and FODs to ensure
     that actions taken by LEAs are actually working to achieve overall
     program goals of identifying and removing criminal aliens.



     The Performance of 287(g) Agreements Report Update 


                          Page 31

OSLC 287(g) disseminates monthly encounter statistics to the
appropriate SAC and FOD field offices for data quality reviews.
The SAC/FOD field offices analyze the encounter statistics,
correct errors to maintain data integrity, and prepare a quarterly
memorandum to the 287(g) headquarters component for analysis.
After the analysis is completed, OSLC prepares a memorandum to
the Deputy Assistant Secretary for Operations summarizing how
the 287(g) Task Force and Jail Enforcement model programs are
exercising their delegated authority, consistent with ICE priorities.

On December 9, 2009 a memorandum titled “Monitoring the
Exercise of 287(g) Authority” was signed advising all Special
Agents in Charge (SACs) and Field Office Directors (FODs) of
their responsibility for ensuring that law enforcement agency
(LEA) partners adhere to the terms of the revised 287(g)
Memorandum of Agreement (MOA) and exercise the delegated
authority consistent with ICE priorities.

Although the 287(g) staff currently located in OSLC will transition
to Enforcement and Removal Operations in the near future, the
staff will continue to ensure accuracy in data collection for each
quarterly review. ICE has established the following follow-up
process:

1.	 A query run is conducted by ICE 287(g) staff to obtain data
    sets.
2.	 A 287(g)-dedicated Data Quality Specialist reviews this data
    on a monthly basis. This review includes a review of data sets
    for data quality issues, with close attention being paid to
    Criminal Offense Levels, Processing Dispositions, Criminal
    Convictions, and Removal Categories.
3.	 Once errors are identified, Data Correction tasking request(s)
    are submitted to the appropriate program office for further
    review, concurrence and, ultimately, distribution to the field.
4.	 Thereafter, 287(g) data is reviewed weekly to ensure that data
    corrections are being made. If data has not been created or
    corrected, those items are targeted for the next monthly data
    quality review.

Based on the follow-up process established, ICE requests this
recommendation be considered Resolved and Closed.

OIG Evaluation: ICE’s response focuses on the results of a data
query that does not incorporate a process for SACs and FODs to
ensure that actions taken by LEAs result in increased compliance


The Performance of 287(g) Agreements Report Update 


                     Page 32

with ICE priority levels. This recommendation remains
unresolved and open until ICE establishes and implements such a
follow-up process.

ICE Response: ICE concurred with Recommendation 14.

Since October 2008, ICE has refined its processes for reviewing
ENFORCE system data entries. 287(g) staff now tasks SAC and
FOD offices with the correction of thousands of records to update
criminal conviction information, ICE severity levels, and various
other data values. 287(g) staff also continues to task SAC and
FOD offices with monthly data corrections and reviews.

On December 9, 2009 a memorandum titled “Monitoring the
Exercise of 287(g) Authority” was signed advising all Special
Agents in Charge (SACs) and Field Office Directors (FODs) of
their responsibility for ensuring that law enforcement agency
(LEA) partners adhere to the terms of the revised 287(g)
Memorandum of Agreement (MOA) and exercise the delegated
authority consistent with ICE priorities.

In support of this memorandum, 287(g) staff disseminates monthly
encounter statistics to the appropriate SAC and FOD field offices
for data quality reviews. The SAC/FOD field offices analyze the
encounter statistics, correct errors to maintain data integrity, and
prepare a quarterly memorandum to the 287(g) staff for analysis.
Once the analysis is completed, a memorandum is prepared for the
Deputy Assistant Secretary for Operations to provide a summary
of how the 287(g) Task Force and Jail Enforcement model
programs are exercising their delegated authority, consistent with
ICE priorities. In order to ensure accuracy in data collection for
each quarterly review, ICE established the process described in our
response to recommendation 13.

Based on the process established to review and verify the accuracy
of ENFORCE system data entries, ICE requests this
recommendation be considered Resolved and Closed.

OIG Evaluation: In its response, ICE indicated that it has refined
its process for reviewing ENFORCE system data entries.
However, ICE did not describe its process for reviewing and
verifying the accuracy of ENFORCE system data. This
recommendation will remain resolved and open our receipt of
such information.



The Performance of 287(g) Agreements Report Update 


                     Page 33

ICE Response: ICE concurred with Recommendation 15.

Since October 2008, ICE has refined its processes of reviewing
ENFORCE system data entries. ICE also continues to task SAC
and FOD offices with monthly data corrections and reviews.
Additionally, ICE has created, and continues to refine, a processing
guideline which is provided to 287(g) points of contact. This
manual details data values to be entered into specific fields, and
further identifies fields that are mandatory entry.

ICE has also requested many changes to ENFORCE, forcing
287(g) users to process according to a pre-determined method so
that users select data from a limited list of values which match ICE
priorities.

ICE has provided Subject Matter Experts to several working
groups, whose goal is to develop data collection methods specific
to ICE priorities and which impact future data collection of 287(g)
user entered data.

Finally, as detailed in our response to recommendation 14, a
memorandum dated December 9, 2009 titled “Monitoring the
Exercise of 287(g) Authority” was signed advising all Special
Agents-in-Charge (SACs) and Field Office Directors (FODs)
regarding their responsibility for ensuring that law enforcement
agency (LEA) partners adhere to the terms of the revised 287(g)
Memorandum of Agreement (MOA) and exercise the delegated
authority consistent with ICE priorities.

Based on the process established for an ICE supervisor to ensure the
effectiveness of plans submitted by LEAs for correcting errors,
preventing recurring data entry errors, and maintaining data
integrity, ICE requests this recommendation be considered Resolved
and Closed.

OIG Evaluation: ICE’s response did not address this
recommendation. This recommendation remains unresolved and
open pending our receipt of a process for ICE supervisors to
ensure the effectiveness of plans submitted by LEAs for correcting
errors, preventing recurring data entry errors, and maintaining data
integrity.

ICE Response: ICE concurred with Recommendation 16.




The Performance of 287(g) Agreements Report Update 


                     Page 34

ICE’s Office of Training and Development (OTD) worked closely
with the 287(g) program to add a new course titled “Officer
Integrity and Complaint Procedures” to the 287(g) curriculum,
which specifically addresses this recommendation. This
recommendation is also being addressed in the supervisory training
currently being developed.

Based on the establishment of a revised curriculum with new courses,
ICE requests this recommendation be considered Resolved and
Closed.

OIG Evaluation: The purpose of this recommendation is to ensure
that 287(g) participants are knowledgeable of the reporting
requirement involving complaints of any sort, pursuant to the
Liability and Responsibility section in the MOA. Based on our
review of the training materials for ICE’s new course titled “Officer
Integrity and Complaint Procedures,” we concluded that the
revised curriculum did not provide sufficient information for ICE
to ensure that 287(g) officers were aware of making notifications
to ICE officials concerning complaints or allegations involving any
sort of behavior that could result in employee discipline, a criminal
investigation or civil lawsuit. We consider this recommendation
unresolved and open pending receipt of a revised curriculum with
sufficient information to ensure that 287(g) officers are aware of
their responsibility to notify ICE officials of any type of complaint
or allegation.




The Performance of 287(g) Agreements Report Update 
 


                      Page 35
 

Appendix A
Purpose, Scope, and Methodology


                   We conducted this review in response to the Department of
                   Homeland Security Appropriations Act, 2010, and accompanying
                   House Report 111-157 and Conference Report 111-298.
                   Specifically, our objectives were to determine whether (1) ICE and
                   law enforcement agencies with active 287(g) agreements were
                   complying with the terms of respective agreements, and (2) ICE is
                   effectively using compliance reviews to assess compliance with
                   287(g) agreements. We also examined ICE’s progress in
                   responding to recommendations outlined in our March 2010 report,
                   The Performance of 287(g) Agreements (OIG-10-63).

                   We conducted our fieldwork from March to July 2010 and
                   interviewed LEA officials, 287(g) officers and ICE personnel
                   working with the 287(g) program. We also observed facilities and
                   program activities at seven participating 287(g) program locations.
                   In addition, we traveled to Nashville, TN to observe and evaluate
                   ICE OPR’s inspection of the Tennessee Department of Public
                   Safety’s 287(g) program in May 2010.

                   The prior review of the 287(g) program included site visits to
                   LEAs that encompassed the largest number of LEA officers active
                   in the program, and 287(g) arrests and removals. It also included
                   locations with indications of possible violations based on reports of
                   civil rights concerns in media report, court cases, and complaints
                   and investigations. For this review, we selected program sites that
                   had been operating for more than one year. Selection criteria also
                   included (1) number of active LEA officers, (2) number of 287(g)
                   arrests and removals, (3) program model type, and (4) reviews by
                   other oversight bodies. We observed 287(g) activities at:

                      •	 Arizona Department of Public Safety, Phoenix, AZ
                      •	 Frederick County Sheriff’s Office, Frederick, MD
                      •	 Herndon Police Department, Herndon, VA
                      •	 Mecklenburg County Sheriff’s Office / Jail Central, 

                         Charlotte, NC 

                      •	 Prince William County Adult Detention Center, Manassas,
                         VA
                      •	 Tennessee Department of Public Safety, Nashville, TN
                      •	 York County Sheriff’s Office, York, SC

                   We performed analyses to determine the use of funds allocated for
                   287(g) compliance inspections. However, we were unable to
                   determine the appropriateness of expenses and obligations against

                   The Performance of 287(g) Agreements Report Update 


                                        Page 36

Appendix A
Purpose, Scope, and Methodology

                   these funds due to inadequate documentation and procedures that
                   did not adequately track expenditures.

                   We analyzed operations of the 287(g) Inspections Group to
                   identify ways to improve the effectiveness and efficiency of their
                   review process for evaluating compliance with agreements.
                   We also performed document reviews and analyses of 287(g)
                   agreements, standard operating procedures, directives and policies,
                   budgetary information, training materials, program data, and
                   statistical information regarding the ICE 287(g) program.

                   We conducted this review under the authority of the Inspector
                   General Act of 1978, as amended, and according to the Quality
                   Standards for Inspections issued by the President’s Council on
                   Integrity and Efficiency.




                   The Performance of 287(g) Agreements Report Update 
 


                                         Page 37
 

Appendix B
Management Comments to the Draft Report




                                                                         u.s. Doparlmeal of lIom.land S«urll)'
                                                                         SOO 12'"SlRCl. SW
                                                                         Wasltillj:\llll. DC 20536


                                                                         u.s. Immigration
                                                                         and Customs
                                                                         Enforcement

                                               September 27, 2010


         MEMORANDUM FOR: Carlton L Mann
                         Assistant Inspector General for Inspcctions
                         Office of Inspcct0:r:ft-".

         FROM:                    Radha C. Sekar
                                  Chief Financial a

         SUBJECT;                 Management Response to OIG Draft, 'The Performance of287(g)
                                  Agreements Update" dated September 10,2010

         U.S. Immigration and Customs Enforcement (ICE) appreciates the opportunity to comment on
         the draft report. We have reviewed and concur with the all recommendations. Attached is our
         response to each of the 16 recommendations. ICE will continue working to resolve all identified
         weaknesses.

         Should you have questions or concerns, please contact Michael Moy, OIG Portfolio Manager, al
         (202) 732-6263, or bye-mail at MichaeI.Moy@dhs.gov.


         Attachments




                                                                                             www.kc.gov




                       The Performance of 287(g) Agreements Report Update 
 


                                              Page 38
 

                     u.s. Immigration and Customs Enforcement                 AUllchment

        Responses for OIG Draft Report Recommendations - 287(g) Update


Recommendation N I: Take timely and appropriate actions to implement DIG
recommendations intended to strengthen management controls and improve oversight of
287(g) operations.

ICE Response: ICE concurs with the recommendation. As the responses below indicate,
ICE has already taken significant actions to strengthen management controls over 287(g)
operations. Additionally, the ICE OSLC 287(g) group (OSLC) has takcn aggressive
steps to ensure accuracy in data collection, with a follow-up process that includes the
dissemination of monthly encounter statistics to the appropriate Special Agent-in-Charge
(SAC) and Field Office Director (FaD) field offices for data quality reviews. OSLC is
also working towards developing its perfonnance measures in coordination with the
Office of Budget Performance and Planning (OBPP). These measures require the
collection of monthly data for one fiscal year to establish a baseline to sufficiently
analyze the perfonnance of each 287(g) program. OSLC has been collecting monthly
data for FY 2010. and will have a base line by the end of September. This will allow
OSLC to report on its perfonnanee for the first quarter of FY 2011. These changes were
initiated in the timeliest fashion with the intention of strengthening management controls
of the program and improving oversight of the program.

Based on ICE's actions to take timely and appropriate actions to implement DIG
recommendations. ICE requests this recommendation be considered Resolved and Closc<!.

Recommendation N 2: Establish an appropriate structure along with sufficient internal
controls for the management and oversight of287(g) funds to ensure appropriate use.

ICE Response: ICE concurs with the recommendation. ICE Office of the Chief Financial
Officer (OCFO) will establish the budget structure so that the Office of Professional
Responsibility (OPR) can implement II new 287(g) program office structure. The new
structure will be fully implemented by October L 2010.

A certified program manager (PM) position to oversee all aspects of the OPR 287(g)
program was announced (Vacancy Announcement LAQ-OPR-386239-MD-330) on
September 17, 2010. The PM will oversee the planning, direction, and timely execution
of the program; detennine goals and objectives; working with OBPP, develop measures
that evaluate perfonnance; make recommendations for program improvement; manage all
resources; and manage organizational changes as well as changes to the content of the
program.

The new structure includes a stafToften Special Agents working from OPR ficld offices
who are solely dedicated to the 287(g) program. These agents will work in alignment
with the stafToftwelve 287(g) personnel at OPR Headquarters and report to the PM.




Date: 9/2711 0                         Page I of8




          The Performance of 287(g) Agreements Report Update 
 


                                  Page 39
 

                     U.S. Immigration and Customs Enforcement                 Allachment

        Responses for OIG Draft Report Recommendations - 287(g) Update

Based on ICE's establishment of a ncw structure for the management and oversight of
287(g) funds to ensure appropriate use, ICE requests this recommendation be considered
Resolved and Closed.

Recommendation # 3: Develop a process to ensure that adequatc supporting
documentation is maintained to track and monitor the allocation, obligation, and
expenditure of funds.

ICE Response: ICE concurs with the recommendation. A Fiscal Year (FY) 2011 spend
plan was fonnulated in conjunction with an operational plan that outlines the
requirements and funding needed in support of the ICE aPR 287(g) program. On
October I, ocro will establish a specific organizational code for thc 287(g) program
ollice that ensures only payroll and general expenditures in support of thc program are
charged to the 287(g) program. The OPR PM will be charged with tracking all
obligations and expenditures of287(g) funds to ensure the funds are used for the
appropriate and stated purpose.

Based on ICE's development of a process to ensure Ihat adequatc supporting
documentation is maintained to track and monitor funds, we request this recommendation
be considered Resolved and Closed.

Reeom mendation # 4: Ensure an appropriate segrcgation of funds by program area.

ICE Response: ICE concurs with the reconUllendation. For FY 2011, ICE has established
a specific organizational code in its financial management system that allows the 287(g)
program ollice to ensure only payroll and general expenditures in support of the program
arc charged to the 287(g) program. The PM will be charged with tracking all obligations
and expenditures (to include payroll) arc used for Ihe appropriate and stated purpose.

Based on ICE's actions to ensuTC an appropriate segregation of funds by program area, we
request this recommendation be considered Resolved and Closed.

Reconlluendation # 5: Conduct a review of287(g) funds allocated for inspections to
ensure thai these funds were used as intended.

ICE Response: ICE concurs with the "-"'Commendation. ICE has completed a
comprehensive review of 287(g) funds expenditures for FY 2009 and FY 20 IO. All 287(g)
program requirements have been properly coded to eithcr the 287(g) program or OPR's base
program funding for FY 20 IO. Further analysis of FY 2009 expendituI'Cs has been completed
and the ICE Burlington Finance Center will be processing actions that will result in the FY
2009 expenditures being an accurate reneclion of costs incurred in support of the 287 (g)
program. These actions and adjustmcnts will be complcted by Scptember 25, 2010.

Also, an FY 2011 spend plan was fonnulated in conjunction with an operational plan that
outlines the requirements and funding needed in support of the 287(g) program. aero
will monitor budget perfonnance and the OPR PM will be charged with executing all

Date: 9/27/10                          Page 2 of8




           The Performance of 287(g) Agreements Report Update 
 


                                   Page 40
 

                      U.S. Immigration and Custonls Enforcement                    Attachment

         Responses for OIG Draft Report Recommendations - 287(g) Update

budget obligations and expenditures of287(g) funds to ensure the funds are used for the
appropriate and stated purpose.

Based on the comprehensive review conducted and reallocation of funds, ICE requests this
recommendation be considered Resolved and Closed.

Recommendation # 6: Re-evaluate the current staffing strategy of using man-hours
instead of dedicated positions for conducting 287(g) inspections.

ICE Response: ICE concurs with the recommendation. As a result ofa re-evaluation,
ICE will use dedicated positions in support of the 287(g) program, and will no longer use
the man-hours model. OCFO will monitor budget performance and the OPR PM will be
charged with executing all budget obligations and expenditures, including payroll, to
ensure funds are used for the appropriate and stated purpose. Additionally, ICE OPR
created and implemented an FY 2011 operational plan that outlines the program
requirements and resources needed to execute the plan.

Based on our re-evaluation and decision to use dedicated positions in its staffing strategy_
ICE requests this recommendation be considered Resolved and Closed.

Reeollllllendation # 7: Re-evaluate the curreot staffing strategy for the 287(g)
Inspections Group, including reporting lines and field employees who are not fully
dedicated to conducting 287(g) inspections.

ICE Response: ICE concurs with the recommendation. aeFO established the budget
structure so that OPR can implement a new 287(g) program office structure. This new
structure will be fully implemented by October I, 2010.

As detailed in our response to Recommendation 2, the PM position will oversee all
aspects of the 287(g) program and was announced (Vacancy Announcement LAQ-OPR-
386239-MD-330) on September 17,2010.

Also, as discussed earlier, the new structure includes a staff often Special Agents solely
dedicated to the 287(g) program and working from OPR field offices.

Based on ICE's establishment and implementation of a new 287(g) program office
structure, we request this recommendation be considered Resolved and Closed.

ReeommentJntion 1# 8: Develop a process to ensure that inspections (Ire staffed with
field agents who have sufficient knowledge of the 287{g) program, and possess the
necessary skills for effective performance.

ICE Re.~ponsc: ICE concurs with the recommendation. The ICE has planned a training
session for all new 287{g) employees during the first quaner ofFY 2011. Additionally,
by having a permanent staff dedicated to conducting 287{g) inspections. staff members



Date: 9127110                             Page 3 of8




          The Performance of 287(g) Agreements Report Update 
 


                                    Page 41
 

                     U.S. Immigration and Customs Enforcement                  Attachmelll

        Responses for OIG Draft Report Recommendations - 287(g) Update

will be able to receive on-the-job training from other 287(g) employees during the first
half ofFY 2011 and beyond.

Based on ICE's development of a process to ensure that inspections are staffed with field
agents who have sufficient knowledge of the 287(g) program, and possess the necessary
skills for effective perfommnce. ICE requests this recommendation be considered Resolved
and Closed.

Recommendation # 9: Ensure that stafTmembers paid from 287(g) funds actually
panicipate in 287(g) compliance reviews.

ICE Response: ICE concurs with the recommendation. Under the new ICE inspections
structure, all staff members paid from 287(g) funds will be dedicated to the 287(g)
program.

As we detailed in our response to Recommendation 2, OFCO will oversee budget
execution and aPR PM will oversee execution of the 287(g) program.

Based on the new structure, ICE will ensure that staff are paid from 287(g) funds actually
participate in 287(g) compliance reviews. Therefore, we request this recommendation be
considered Resolved and Closed.

Recommendation #10: Ensure that the 287(g) Inspections Group is notified of actions
taken as a result of recommendations in their inspection reports.

ICE Response: ICE concurs with the reconilllendation. As of September 2010, ICE
OSLC began to provide OPR the responses from the field offices regarding issues,
deficiencies, concerns and recommendations highlighted in 287(g) inspection repons.
The OPR 287(g) Inspections Section will monitor and document these responses and
validate the stated corrective actions during the next scheduled inspection or during a
follow-up inspection, ifone is warranted.

Based on our actions to ensure the ICE 287(g) Inspections Group is notified of actions
taken as a result of recommendations in their inspection reports, ICE requests this
recommendation be considered Resolved and Closed.

Recommendation # II: Develop a process to ensure that planned inspections include a
review of actions taken to address previously identified deficiencies and other issues, as
needed.

ICE Response: ICE concurs with the recommendation. ICE OPR 287(g) Inspections
Section will review the field actions taken in response to previously identified
deficiencies and issues prior to its next scheduled inspection. and verify their completion
during the inspection process. If a follow-up inspection is warranted, one will be
conducted by the OPR 287(g) Inspections Section.



Date: 9/2711 0                          Page 4 of8




          The Performance of 287(g) Agreements Report Update 
 


                                   Page 42
 

                      U.S. Immigration and Customs Enforcement                  Attachment

         Responses for OIG Draft Report Recommendations - 287(g) Update


Based on our development of a process to ensure that planned inspections include a
review of actions taken to address previously identified deficiencies and other issues, as
needed, ICE requests this recommendation be considered Resolved and Closed.

Recommendation # 12: Establish and implement a comprehensive process for
detennining whether 287(g) program goals are being achieved. This should include
analyses of encounters, arrests, and removal statistics for each priority level.

ICE Response: ICE concurs with the recommendation. The ICE OSLC 287(g) group is
developing its perfomumce measures in coordination with the OBPP. The measures
require the collection of monthly data for an entire year in order to establish a baseline to
sufficiently analyze the perfonnance of each 287(g) program. ICE has been collecting
monthly data for FY 2010, and will have a base line by the end of September. This will
allow 287(g) to report on the perfonnance for the first quarter ofFY 2011.

On December 9, 2009 a memorandum titled "Monitoring the Exercise of287(g)
Authority" was signed advising all Special Agents in Charge (SACs) and Field Office
Directors (FODs) of their responsibility for ensuring that law enforcement agency (LEA)
partners adhere to the terms of the revised 287(g) Memorandum of Agreement (MOA)
and exercise the delegated authority consistent with ICE priorities. This guidance
memorandum will help to ensure that accurate data is captured.

Pending ICE's establishment and implementation of a comprehensive process for
detennining whether its 287(g) program goals are being achieved. we request this
recommendation be considered Resolved and Open.

Recommendntion # 13: Establish a follow-up process for SACs and FODs to ensure
that actions taken by LEAs to improve their compliance with ICE priority levels arc
actually working to achieve overall program goals of identifying and removing criminal
aliens.

ICE Response: ICE concurs with the recommendation. ICE established a follow-up
process for SACs and FODs to ensure that actions taken by LEAs arc actually working to
achieve overall program goals of identifying and removing criminal aliens.

OSLC 287(g) disseminates monthly encounter statistics to the appropriate SAC and FOD
field officcs for data quality reviews. The SAC/FOD field offices analyze the encounter
statistics, correct errors to maintain data integrity, and prepare a quarterly memorandum
to the 287(&) headquarters component for analysis. After the analysis is completed,
OSLC prepares a memorandum to the Deputy Assistant Secretary for Operations
summarizing how the 287(g) Task Force and Jail Enforcement model programs are
exercising their delegated authority, consistent with ICE priorities.




Date: 9f27/10                            Page 5 of8




          The Performance of 287(g) Agreements Report Update 
 


                                   Page 43
 

                     U.S. Immigration and Customs Enforcement                 Attachment

         Responscs for OIG Draft Rcport Recommendations - 287(g) Updlltc

On December 9, 2009 a mcmorandum titled "Monitoring the Exercise of287(g)
Authority" was signed advising all Special Agents in Charge (SACs) and Field Office
Directors (FODs) of their responsibility for ensuring that law enforcement agency (LEA)
partncrs adhere to the tcrms of the revised 287(g) Memorandum of Agreement (MOA)
and excrcise the delcgated authority consistent with ICE prioritics.

Although the 287 (g) staff currently located in OSLC will transition to Enforcement and
Removal Operations in the near future, the staff will continue to ensure accuracy in data
collection for each quarterly review. ICE has established the following follow-up
process:

    I. A query run is conducted by ICE 287(g) staff to obtain data sets.
    2. A 287(g)-dedicated Data Quality Specialist reviews this data on a monthly basis.
       This review includes a review of data sets for data quality issues, with close
       attention being paid to Criminal Offense Levels, Processing Dispositions,
       Criminal Convictions, and Removal Categories.
    3. Once errors are identified, Data Correction tasking request(s) are submitted to the
       appropriate program office for further review, concurrence and, ultimately,
       distribution to the field.
    4. Thereafter, 287(g) data is reviewed weekly to ensure that data corrections are
       being made. If data has not been created or corrected, those items are targeted
       for the next monthly data quality review.

Based on the follow-up process established, ICE requests this recommendation be considered
Resolved and Closed.

Recommendation # 14: Develop a process to review and verify the accuracy of
ENFORCE system data entries.

ICE Response: ICE concurs with the recommend.ation. Sinee October 2008, ICE has
refined its processes for reviewing ENFORCE system data entries. 287(g) staff now tasks
SAC and FOD offices with the correction of thousands of records to update criminal
conviction information, ICE severity levels, and various other data values. 287(g) staff
also continues to task SAC and FOD offices with monthly data corrections and reviews.

On December 9, 2009 a memorandum titled "Monitoring the Exercise of287(g)
Authority" was signed advising all Special Agents in Charge (SACs) and Field Office
Directors (FaDs) their responsibility for ensuring that law enforcement agency (LEA)
partners adhere to the terms of the revised 287(g) Memorandum of Agreement (MOA)
and exercise the delegated authority consistent with ICE priorities.

In support of this memorandum, 287(g) staff disseminates monthly encounter statistics to
the appropriate SAC and FOD field offices for data quality reviews. The SACIFOD field
offices analY.le the encounter statistics, correct errors to maintain data integrity, and
prepare a quarterly memorandum to the 287(g) staff for analysis. Once the analysis is


Date: 9/27/1 0                         Page 60f8




           The Performance of 287(g) Agreements Report Update 
 


                                   Page 44
 

                     U.S. Immigration and Customs Enforcement                  Allaehment

        Responses for OIG Draft Report Recommendations - 287(g) Update

completed, a memorandum is prepared for the Deputy Assistant Secretary for Operations
to provide a summary of how the 287(g) Task Force and Jail Enforcement model
programs are exercising their delegated authority, consistent with ICE priorities. In order
to ensure accuracy in data collection for each quarterly review, ICE established the
process described in our response to recommendation 13.

Based on the process established to review and verify the accuracy of ENFORCE system
data entries, ICE requests this recommendation be considered Resolved and Closed.

Recommendation # 15: Establish a process for ICE supervisor to ensure the
effectiveness of plans submitted by LEAs for correcting errors, preventing recurring data
entry errors, and maintaining data integrity.

ICE Response: ICE concurs with the recommendation. Since October 2008, ICE has
refined its processes of reviewing ENFORCE system data entries. ICE also continues to
task SAC and FOD offices with monthly data corrections and reviews. Additionally, ICE
has created, and continues to refine, a processing guideline which is provided to 287(g)
points of contact. This manual details data values to be entered into specific fields, and
further identifies fields that are mandatory entry.

ICE has also requested many changes to ENFORCE, forcing 287(g) users to process
according to a pre-detennined method so that users select data from a limited list of
values which match ICE priorities.

ICE has provided Subject Mauer Experts to several working groups, whose goal is to
develop data collection methods specific to ICE priorities and which impact future data
collection of287(g) user entered data.

Finally, as detailed in our response to recommendation 14, a memorandum dated
December 9, 2009 titled "Monitoring the Exercise of287(g) Alithority" was signed
advising all Special Agents-in-Charge (SACs) and Field Office Directors (FODs)
regarding their responsibility for ensuring that law enforcement agency (LEA) partners
adhere to the tenns of the revised 287(g) Memorandum of Agreement (MOA) and
exercise the delegated authority consistent with ICE priorities.

Based on the process established for an ICE supervisor to ensure the effectiveness of plans
submitted by LEAs for correcting errors, preventing recurring data entry errors, and
maintaining data integrity, ICE requests this recommendation be considered Resolved and
Closed.

Recommend:ltion # 16: Ensure that 287(g) officers are knowledgeable of all complaint
procedure requirements for notirying appropriatc ICE officials of complaints or
allegations involving the violation of the tcnns of the MOA, or of any sort that may result
in employee discipline or an employee becoming the subject of a criminal invcstigation
or civil law suit.


Date: 9127/1 0                          Page 7 ora




          The Performance of 287(g) Agreements Report Update 
 


                                  Page 45
 

                     u.s. Immigration and Customs Enrorcement                  Attachment

        Responses ror OIG Drart Report Recommendations - 287(g) Update


ICE Response: ICE concurs with the recommendation, ICE's Office ofTraining and
Development (OTD) worked closely with Ihe 287(g) program to add a new course titled
"Officer Integrity and Complaint Procedures" to the 287(g) curriculum, which
specifically addresses this recommendation. This recommendation is also being
addressed in the supervisory training currently being developed.

Based on the establishment of a revised curriculum with new courses, ICE requests this
recommendation be considered Resolved and Closed.




Date: 9/27110                           Page 8 of8




           The Performance of 287(g) Agreements Report Update 
 


                                   Page 46
 

Appendix C
Recommendations from Prior Report

Status of Recommendations From Prior OIG Report,
The Performance of 287(g) Agreements, dated March 2010

Recommendation #1: Establish a process to collect and maintain arrest, detention, and
removal data for aliens in each priority level for use in determining the success of ICE's focus
on aliens who pose the greatest risk to public safety and the community.

ICE Response: ICE conducts ongoing quality reviews on data input by 287(g) officers in
ICE systems. The comprehensive quality review process is documented through two
memoranda signed by the Deputy Assistant Secretary. Monitoring the Exercise of 287(g)
Authority, dated December 9, 2009, and Field Guidance on Monitoring the Exercise of
287(g) Authority, dated January 19, 2010, advise all Special Agents in Charge (SAC) and
Field Office Directors (FOD) of their responsibility in ensuring law enforcement agencies
(LEAs) adhere to the terms of their Memorandum of Agreement (MOA) with ICE and
exercise their delegated authority consistent with ICE priorities. On a monthly basis, the
LEAs are tasked with reviewing their statistics, and submitting them to ICE. ICE
continuously monitors this information for data quality, and gathers statistics on encounters
respective to the Criminal Threat Levels.

OIG Response: The intent of this recommendation is to focus on the collaboration between
ICE and LEAs in identifying and processing for removal criminal aliens who pose a threat to
public safety or a danger to the community. Documents provided by ICE outline a process
for collecting and maintaining alien arrest data. However, ICE has not identified a process
for collecting and maintaining related alien detention and removal data in each priority level.
This recommendation will remain resolved and open pending our receipt of information
describing such a process.

Recommendation #2: Develop procedures to ensure that 287(g) resources are allocated
according to ICE's priority framework.

ICE Response: ICE conducts ongoing quality reviews on data input by 287(g) officers in
ICE systems. The comprehensive quality review process is documented in two memos,
Monitoring the Exercise of 287(g) Authority and Field Guidance on Monitoring the Exercise
of 287(g) Authority. On a monthly basis, the LEAs are tasked with reviewing their statistics,
and submitting them to ICE. ICE continuously monitors for data quality and gathers
statistics on encounters respective to the Criminal Sensitivity Levels.

ICE also includes detailed descriptions of Criminal Sensitivity Levels in Appendix D of each
MOA with an LEA. This information is provided to ensure resources are managed
effectively. ICE requires the LEAs to manage their resources dedicated to 287(g)
authority under the MOA. Appendix D reflects the categories of aliens that are a priority
for arrest and detention with the highest priority being Level 1 criminal aliens.

OIG Response: The referenced memoranda and quarterly summaries provide a framework
for ICE to monitor the exercise of 287(g) authority by capturing statistical information that
will assist in measuring adherence to ICE priorities. As part of the data review process, each

                        The Performance of 287(g) Agreements Report Update 
 


                                              Page 47
 

Appendix C
Recommendations from Prior Report

SAC/FOD provides a monthly memo to the Office of Investigations (OI) and Office of
Detention and Removal Operations (DRO) detailing, in part, how the 287(g) program is
working in relation to ICE priorities. If the 287(g) program is not operating according to ICE
priorities, the memo should address what actions are being taken by the Special Agents in
Charge (SAC) and Field Office Directors (FOD) to ensure compliance with ICE priorities.
In order to strengthen this process, follow-up procedures should be developed and
implemented to ensure that measures taken by the SAC/FOD result in increased compliance
with ICE priorities. In addition, to better ensure the accuracy of statistics used to determine
compliance with ICE priorities, a corrective action plan should be developed to minimize
entries coded as “No Data,” which represents a record that was not completed properly.

Our March 2010 report identified the need for performance measures with specific target
levels for arrest, detention, and removal priority levels. The December 9, 2009 response ICE
provided indicated that OSLC has drafted a revised performance measure that will consider
the nature of the criminal offense based on the severity of the crime, and will establish a
baseline and communicate targets for each severity level. These targets will reflect both
prioritizations based on crime level, as well as average volume of encounters within each
crime level. However, additional information regarding target levels was not included as part
of the June 2010 status of recommendations provided by ICE.

This recommendation will remain unresolved and open pending our receipt of additional
documentation that outlines ICE’s efforts to further identify and ensure adherence to ICE
priority levels.

Recommendation #4: Establish a process to ensure effective supervision of 287(g)
officers and immigration enforcement operations.

ICE Response: ICE provides a draft of the Curriculum Design Plan Report, ICE Training
for Managing 287(g) Agents and Officers, Office of Training and Development, dated
May 2010 for OIG Review. Implementation of this new curriculum is scheduled for the
first quarter of Fiscal Year 2011. In addition, ICE provides a draft of the Office of State
and Local Coordination, 287(g) Communications Plan, FY 2011 to 2012, v 0.12, for OIG
review.

OIG Response: This recommendation will remain resolved and open pending our receipt
of the final versions of these documents.

Recommendation #5: Develop controls to ensure that supervisory responsibilities for 287(g)
supervisors are considered when determining staffing ratios in ICE field offices.

ICE Response: Operational responsibilities are carried out by OI and DRO. ICE will
construct a cost model to reflect the need to assign supervisors to field offices to address
the requirement of overseeing state and local law enforcement officers with 287(g)
authorities. Due to the wide differences between the supervisory requirements, the model
will have two categories to include 287(g) officers operating under the jail model, and


                        The Performance of 287(g) Agreements Report Update 
 


                                              Page 48
 

Appendix C
Recommendations from Prior Report

those officers operating under the task force model. While a jail setting generally lends
itself to standardization, the focus, scope, and activity of task forces are too variable to
apply standard requirements.

The ICE Office of Budget will work with DRO and OI to formulate standard ratios for
supervising jail settings, and, on a case by case basis, develop individual task force needs.
As new task forces are created, a specific 287(g) supervisory requirement will be part of
the planning process. As needed, individual field offices will have the ability to justify
additional requirements for either model beyond the established requirement.

As an integral part of this plan, ICE will institute a time to revisit these requirements and
adjust them based on actual experience. Also, as jurisdictions and the number of 287(g)
officers change, these changes will be included in supervisory requirements planning for
the following budget.

OIG Response: The ICE response describes the development of a cost model to reflect the
need to assign supervisors for overseeing 287(g) officers. Since a cost model focuses on
converting resource data into cost data, ICE needs to also develop a staffing model that
addresses a sufficient quantity and quality of workforce to supervise 287(g) officers. This
recommendation will remain unresolved and open.

Recommendation #6: Ensure that 287(g) supervision is provided by authorized staff with
the appropriate knowledge, skills, and abilities.

ICE Response: ICE provides drafts of the Curriculum Design Plan Report, ICE Training
for Managing 287(g) Agents and Officers, Office of Training and Development, dated
May 2010, and Office of State and Local Coordination, 287(g) Communications Plan, FY
2011 to 2012, v 0.12, for OIG review. Implementation of this new curriculum is
scheduled for the first quarter of Fiscal Year 2011. Through this documentation, ICE
ensures that 287(g) staff and field personnel provide a cohesive and standardized
message.

OIG Response: The ICE response indicates that the purpose of the new curriculum is to
ensure that 287(g) staff and field personnel provide a cohesive and standardized message.
However, the intent of this recommendation focuses on the personnel delegated
responsibility for supervising 287(g) officers. We noted that nonsupervisory ICE
personnel without the technical knowledge were performing supervisory tasks over
287(g) officers. Therefore, ICE needs to provide information regarding controls to
ensure that only authorized staff with appropriate knowledge, skills, and abilities serve in
a supervisory capacity over 287(g) officers. This recommendation will remain unresolved
and open pending our receipt of such information.

Recommendation #7: Develop and implement 287(g) field supervision guidance that
includes, at a minimum (1) the frequency and type of contact required between 287(g) officers
and ICE supervisors; (2) the preparation, review, and approval of operational plans for

                        The Performance of 287(g) Agreements Report Update 
 


                                              Page 49
 

Appendix C
Recommendations from Prior Report

community-based immigration enforcement activities; and (3) performance feedback
requirements for 287(g) officers.

ICE Response: Responsibilities in the area of training are carried out by the Office of
Training and Development (OTD). OTD is currently working with the Office of State and
Local Coordination (OSLC) in the development of curriculum for ICE supervisors and
program managers who work with 287(g) officers in the field. This curriculum will
address all of these issues, and should be implemented within the next six months.

Under consideration is a program to assign all 287(g) IADP graduates to a field training
program and placed on probation for a period of twelve months after graduation. During
the probationary period, the graduates will be closely monitored by ICE supervisors
and/or program managers, and should meet individually with each other at least bi­
weekly to discuss performance, goals and any necessary remedial/corrective action or
training.

Additionally, ICE’s comprehensive quality review process is documented through two
memoranda, Monitoring the Exercise of 287(g) Authority, dated December 9, 2009, and Field
Guidance on Monitoring the Exercise of 287(g) Authority, dated January 19, 2010. These
memos advise all SACs and FODs of their responsibility in ensuring LEAs adhere to the
terms of their MOA with ICE, and exercise their delegated authority consistent with ICE
priorities. ICE is also providing the following documentation for OIG Review in order to
assess how ICE addresses potential inconsistencies in supervision of the 287(g) officers and
the process for data quality reviews:

   1.	 DRAFT: Curriculum Design Plan Report, ICE Training for Managing 287(g)
       Agents and Officers, Office of Training and Development (OTD), May 2010

   2.	 DRAFT: Office of State and Local Coordination, 287(g) Communications Plan,
       FY2011-2012, v 0.12

   3.	 DRAFT Policy: Suspension or Revocation of a Designated Immigration Officer’s
       287(g) Authority

   4.	 DRAFT Policy: Annual Verification of Designated Immigration Officers’ 
 

       Recertification of Delegated 287(g) Authority
 


   5.	 287(g) Task Force Model Adherence to ICE Priorities, April 16, 2010”

   6.	 287(g) Jail Enforcement Model Adherence to ICE Priorities, April 30, 2010

OIG Response: This recommendation is resolved and open pending receipt of the final
versions of the referenced performance management policies, and the outcome of
considerations for a field training program.



                       The Performance of 287(g) Agreements Report Update 


                                            Page 50

Appendix C
Recommendations from Prior Report

Recommendation #8: Establish and implement a comprehensive process for conducting
periodic reviews, as well as reviews on an as-needed basis, to determine whether to modify,
extend, or terminate 287(g) agreements. At a minimum, this process should include an
assessment of (1) current or previous concerns expressed by field office staff; (2) media
attention or community concerns that contribute to negative or inappropriate conclusions
about the 287(g) program; (3) lawsuits or complaints; (4) potential civil rights and civil
liberties violations; and (5) ICE's ability to provide effective supervision and oversight.

ICE Response: ICE’s comprehensive quality review process is documented through two
memoranda signed by the Deputy Assistant Secretary, Mr. Alonzo Peña. The memos:
Monitoring the Exercise of 287(g) Authority, Dec 9, 2009, and Field Guidance on
Monitoring the Exercise of 287(g) Authority, Jan 19, 2010, advise all SACs and FODs of
their responsibility in ensuring LEAs adhere to the terms of their MOA with ICE and
exercise their delegated authority consistent with ICE priorities. These memos are both
provided for OIG review.

ICE provides the DRAFT Policy: Review, Suspension, and Termination of 287(g)
Memoranda of Agreement, which addresses the methodology for determining whether to
modify, extend or terminate agreements. In addition, two examples of Quarterly Reviews
are provided for OIG review, entitled 287(g) Task Force Model Adherence to ICE Priorities,
dated April 16, 2010, and 287(g) Jail Enforcement Model Adherence to ICE Priorities, dated
April 30, 2010.

OIG Response: This recommendation is resolved and open pending our receipt of the final
policy regarding the review, suspension and termination of 287(g) MOAs.

Recommendation #9: Require 287(g) program sites to maintain steering committees with
external stakeholders, with a focus on ensuring compliance with the MOA.

ICE Response: ICE is currently in the process of finalizing guidance to the LEAs to
establish and implement steering committees with external stakeholders. This guidance and
implementation details will be provided to the LEAs with sufficient lead time so they can
execute by the first quarter of FY 2011.

OIG Response: This recommendation is resolved and open pending receipt of the
referenced guidance.

Recommendation #10: Establish a process to periodically cross-check Office of Professional
Responsibility (OPR), OSLC, and Office of the Chief Information Officer (OCIO) records to
confirm 287(g) officers' eligibility and suitability to exercise authorities granted under
287(g) MOAs.

ICE Response: ICE provides the DRAFT Policy: Suspension or Revocation of a
Designated Immigration Officer’s 287(g) Authority for OIG review. Final signature of
this policy is scheduled for the third quarter of FY 2010.



                       The Performance of 287(g) Agreements Report Update 


                                            Page 51

Appendix C
Recommendations from Prior Report

OIG Response: This recommendation will remain resolved and open pending receipt of the
final version of the referenced policy document.

Recommendation #12: Establish and implement procedures on how the results of
complaints, allegations, and subsequent investigations against LEA personnel conducting
immigration enforcement activities should be maintained and used as part of the suitability
and recertification processes.

ICE Response: Prior to becoming a 287(g) officer, candidates must complete a
comprehensive questionnaire providing information regarding any past complaints or
allegations/investigations. ICE provides the 287(g) Partnership Questionnaire Form 70-009
form, dated April 2010, for OIG review. Once the law enforcement officer is an active
287(g) officer, their files are maintained by the LEA, and are continuously monitored and
reviewed by the OPR during regular inspections. ICE provides Appendix B, Complaint
Procedure, and the Nomination of Personnel sections of the MOA for OIG review. All
complaints received by ICE are referred to the Joint Intake Center for further investigation.
The DRAFT Policy, Suspension or Revocation of a Designated Immigration Officer’s
287(g) Authority ensures frequent and consistent monitoring. In addition, the DRAFT
Policies entitled Suspension or Revocation of a Designated Immigration Officer’s 287(g)
Authority directive, and Review, Suspension, and Termination of 287(g) Memoranda of
Agreement directive make the review of complaints, allegations, and investigations
involving individual LEA personnel part of the suitability and recertification process for
individual officers and the review of the MOA, as a whole.

OIG Response: This recommendation is resolved and open pending receipt of the final
referenced policies and directives.

Recommendation #13: Establish specific operating protocols and requirements for
operational variances identified in task force and jail enforcement program models.

ICE Response: ICE provides full time resources to support the implementation of 287(g)
programs at the LEA level. ICE also ensures that these resources are utilized in alignment
with ICE priorities and Criminal Sensitivity Levels 1, 2, and 3.

ICE’s comprehensive quality review process is documented through two memoranda signed
by the Deputy Assistant Secretary. The memos, Monitoring the Exercise of 287(g) Authority
and Field Guidance on Monitoring the Exercise of 287(g) Authority, advise all SACs and
FODs of their responsibility in ensuring law enforcement agencies adhere to the terms of
their MOA with ICE and exercise their delegated authority consistent with ICE priorities.

ICE understands that each LEA has customized local standards of operation, and encourages
LEAs to share their lessons learned and best practices amongst one another. A 287(g) LEA
Training Conference was held in April 2010 to have LEAs share their customized operations,
yet ensure that LEAs follow ICE priorities, and are compliant with MOA requirements.



                        The Performance of 287(g) Agreements Report Update 
 


                                              Page 52
 

Appendix C
Recommendations from Prior Report

Two examples of Quarterly Reviews are also provided for OIG review, entitled 287(g) Task
Force Model Adherence to ICE Priorities and 287(g) Jail Enforcement Model Adherence to
ICE Priorities.

OIG Response: This recommendation addresses the variations when 287(g) officers exercise
their immigration enforcement authority. For example, we observed that some jail models
screen only convicted criminals, whereas others screen everyone entering the facility. Also,
some task force officers inquired about immigration status during traffic stops while others
only did so during ICE-led investigations. The referenced memoranda direct managers to
supervise the officers and ensure compliance with the MOA; however, neither the MOA nor
the memoranda address variances in operational procedures. This recommendation will
remain unresolved and open.

Recommendation #14: Study the feasibility and appropriateness of increasing the
frequency of OPR 287(g) inspections, and report findings to the OIG.

ICE Response: Responsibilities in the area of inspections and audits of the program are
carried out by OPR. Currently, ICE has 62 program sites with 287(g) authority. To date,
OPR has completed 41 inspections. By the end of FY 2011, OPR anticipates completing
a total of 72 program site inspections. OPR plans to conduct a total of 24 program site
inspections in FY 2011. OPR expects the number of 287(g) inspections to increase in FY
2012 as vacancies are filled and staffing levels increase.

After this initial inspection cycle, OPR will re-evaluate the feasibility and appropriateness
of increasing its frequency of OPR 287(g) inspections, and report its findings to the OIG.
The OPR inspections scheduling process is determined by various factors; including but
not limited to:

    •   Known age of the program
    •   Known vulnerabilities
    •   Size of the program
    •   Time since last inspection
    •   Leads from alleged misconduct/investigations and/or
    •   Special requests from ICE management

OIG Response: This recommendation is resolved and open pending our receipt of planned
FY 2011 inspections, and an evaluation of the frequency of inspections.

Recommendation #15: Require 287(g) applicants to provide information about past and
pending civil rights allegations, and incorporate a civil rights and civil liberties review as part
of the documented 287(g) site selection and MOA review processes.

ICE Response: The DHS Civil Rights and Civil Liberties (CRCL) group is a stakeholder on
the ICE 287(g) Advisory Board. CRCL’s participation in the OSLC Advisory Board was
designed to address the past performance of each LEA, including civil rights and civil

                         The Performance of 287(g) Agreements Report Update 
 


                                               Page 53
 

Appendix C
Recommendations from Prior Report

liberties factors, as part of the site selection and MOA review processes. Also, ICE asked
CRCL to present during the April 2010 287(g) LEA Training Conference as a keynote
speaker. The presentation was geared towards raising awareness of the CRCL mission, and
review how 287(g) processes incorporate CRCL reviews.

ICE provides the Office of State and Local Coordination, 287(g) Program Strategic Plan,
FY2011-2012, Draft, v 0.3, for OIG review. This documentation addresses CRCL in the
Advisory Committee Section. Also of note is that by the first quarter of FY 2011, an
OSLC Advisory Committee Governance Structure will be developed to outline and
document roles and responsibilities for the OSLC Advisory Committee.

The draft directive, Review, Suspension, and Termination of 287(g) Memoranda of
Agreement, addresses this recommendation by including such factors as credible
allegations of misconduct, negligence, discrimination on account of race or ethnicity, or
other civil rights violations by officers of a participating LEA in ICE’s periodic and ad
hoc reviews of 287(g) MOAs.

OIG Response: The focus of this recommendation is to address past performance of each
LEA, including civil right and civil liberties factors, as part of the site selection and MOA
review process. This issue is not addressed in the ICE response or in supporting
documentation. In addition, the specific role that CRCL will play as part of the OSLC
Advisory Board is currently not included in the OSLC Strategic Plan. Also, a requirement
for applicants to provide information about past and pending civil rights allegations has not
been addressed. This recommendation remains unresolved and open.

Recommendation #16: Include a representative on the advisory committee to provide
insights into civil rights and civil liberties issues as part of the approval process.

ICE Response: CRCL is a stakeholder on the ICE 287(g) Advisory Board. CRCL’s
participation in the OSLC Advisory Board was designed to address the past performance of
each LEA, including civil rights and civil liberties factors, as part of the site selection and
MOA review processes.

Additionally, ICE asked CRCL to present during the April 2010 287(g) LEA Training
Conference as a keynote speaker. The presentation was geared towards raising awareness of
the CRCL mission, and how 287(g) processes incorporate CRCL reviews.

ICE provides the Office of State and Local Coordination, 287(g) Program Strategic Plan,
FY 2011-2012, Draft, v 0.3” for OIG review, in particular referring to Appendix B, pg.
A-7, which describes the roles and responsibilities of the Advisory Board. Also, by the first
quarter of FY 2011, an OSLC Advisory Committee Governance Structure will be
developed to outline and document roles and responsibilities for the OSLC Advisory
Committee.




                        The Performance of 287(g) Agreements Report Update 
 


                                              Page 54
 

Appendix C
Recommendations from Prior Report

OIG Response: The OSLC Strategic Plan outlines the roles and responsibilities of the
Advisory Board in general terms. This recommendation will remain resolved and open
pending our receipt of the OSLC Advisory Committee Governance Structure documenting
its roles and responsibilities, and specific duties and responsibilities for CRCL involvement
in the MOA review process regarding LEAs past or present involvement in civil rights and
civil liberties issues.

Recommendation #17: Develop a process to ensure that information submitted from ICE
field offices as part of the application review process is fully taken into consideration before a
final decision is made. This recommendation should include provisional approvals that
require resource considerations to ensure proper supervision and oversight.

ICE Response: The DHS Civil Rights and Civil Liberties (CRCL) group is a stakeholder on
the ICE 287(g) Advisory Board. This Advisory Board is made up of representatives from all
ICE components. Also, ICE asked CRCL to present during the April 2010 287(g) LEA
Training Conference as a keynote speaker. The presentation was geared towards raising
awareness of the CRCL mission, and review how 287(g) processes incorporate CRCL
reviews.

In addition, ICE provides the “Office of State and Local Coordination, 287(g) Program
Strategic Plan, FY2011-2012, Draft, v 0.3” for OIG review, in particular, referring to
Appendix B, pg. A-7, which describes, in detail, the roles and responsibilities of the
Advisory Board. Also, by the first quarter of FY 2011, an OSLC Advisory Committee
Governance Structure will be developed to outline and document roles and
responsibilities for the OSLC Advisory Committee.

OIG Response: The focus of this recommendation is the availability of adequate resources
for field offices to properly supervise newly approved LEAs for participation in the 287(g)
program. However, documents referenced in ICE’s response do not address this issue.
ICE’s initial response to this recommendation made reference to an Internal Advisory
Committee that would review and assess field office recommendations about pending 287(g)
MOA applications. However, the current ICE response does not include any information
regarding committee procedures that would be responsive to this recommendation, which
remains resolved and open.

Recommendation #18: Establish collection and reporting standards that provide objective
data to increase monitoring of the methods participating jurisdictions use in carrying out
287(g) functions, and their effect on civil liberties. Collection and reporting requirements
should include (1) the circumstances and basis for task force officer (TFO) contacts with the
public, (2) the race and ethnicity of those contacted, and (3) the prosecutorial and judicial
disposition of 287(g) arrests.

ICE Response: ICE does not concur, as stated in the original response.

OIG Response: ICE’s initial response to this recommendation included their conduct of an
assessment of the goal of this recommendation to ensure that ICE’s 287(g) partners protect

                         The Performance of 287(g) Agreements Report Update 
 


                                               Page 55
 

Appendix C
Recommendations from Prior Report

the civil liberties of every individual they encounter. This recommendation remains
unresolved and open pending our receipt of the results of the assessment described by
ICE.

Recommendation #20: Ensure that 287(g) basic training includes coverage of MOAs, and
public outreach and complaint procedures.

ICE Response: Responsibilities in the area of training are carried out by OTD. On the first
day of training, attorney instructors review the core terms of the MOA with the 287(g)
students. The students are also provided with a hand out which clearly illustrates the
MOA generalities in the boiler plate format. The students are provided the opportunity to
ask specific questions pertaining to the MOA, and they are also encouraged to seek
further guidance from their partner organization supervisors and ICE supervisors and/or
program managers in regards to the specific language of their agency-specific MOA and
the terms of the agreement as they relate to their individual 287(g) duties.

Public outreach principles are covered extensively in cross cultural communications.
Instruction in complaint procedures is also covered on the first day of training, and
further addressed during the officer integrity block of instruction.

OIG Response: We documented in our initial report that although the 287(g) basic training
materials and course schedule include MOAs, public outreach and complaint procedures, we
noted that ICE instructors had not consistently delivered these training modules. Therefore,
the intent of our recommendation is for ICE to ensure that these materials are actually
provided to 287(g) participants during basic training. This recommendation remains
unresolved and open.

Recommendation #21: Enhance the current 287(g) training program to provide
comprehensive coverage of immigration systems and processing. At a minimum, this should
include hands-on experience during the 287(g) basic training course, on-the-job training, and
periodic refresher training.

ICE Response: ICE provides the DRAFT: Guidelines for Overall Structure of 287(g) Post
Academy Training Program for OIG review, as well as the DRAFT: Curriculum Design
Plan Report, ICE Training for Managing 287(g) Agents and Officers, Office of Training
and Development, dated May 2010.

OIG Response: This recommendation remains resolved and open pending verification of a
final job training program manual, as implemented.

Recommendation #22: Ensure that an appropriate level of coverage on immigration
benefits, asylum, and victim and witness protections is included as part of the 287(g) basic
training agenda.




                        The Performance of 287(g) Agreements Report Update 
 


                                              Page 56
 

Appendix C
Recommendations from Prior Report

ICE Response: Responsibilities in the area of training are carried out by OTD. The special
status aliens and the victim assistance elements of the 287(g) basic training program
(IADP) include an overview of the asylum and victim and witness protections. Students
are instructed in the proper methods for assisting victims of human trafficking or abuse or
other vulnerable aliens. The court’s holding in American Baptist Churches v. Thornburg
is specifically explained and discussed in the alternate order of removal block of
instruction. The assessment of a student’s ability to meet the training objectives
throughout the entire course is measured in multiple choice exams and a series of hands-
on, realistic, scenario-based practical exercises conducted in the final week of training.

OIG Response: ICE’s response describes the training program that was in effect during our
review. Changes to ensure that an appropriate level of coverage on immigration benefits,
asylum, and victim and witness protections is included as part of the 287(g) basic training
agenda have not been implemented. This recommendation remains unresolved and open.

Recommendation #23: Establish and issue guidance to field office staff for 287(g) officer
annual recertification training that emphasizes completion of online refresher training
courses.

ICE Response: ICE provides the draft policy, Annual Verification of Designated
Immigration Officers’ Recertification of Delegated 287(g) Authority, for OIG review.

OIG Response: This recommendation remains resolved and open pending our receipt of
final policy from ICE, as implemented.

Recommendation #24: Designate field office responsibilities for monitoring and enforcing
compliance with training guidance to include, at a minimum, issuing and enforcing
revocation notices for 287(g) officers who do not complete required training.

ICE Response: ICE provides the draft, Suspension or Revocation of a Designated
Immigration Officer’s 287(g) Authority, and Annual Verification of Designated
Immigration Officers’ Recertification of Delegated 287(g) Authority for OIG review.
These draft directives fulfill this recommendation that ICE designate responsibilities and
provide guidance for issuing and enforcing revocation notices for designated immigration
officers who do not complete required training.

OIG Response: This recommendation remains resolved and open pending our receipt of
the final directives, as implemented.

Recommendation #25: Develop and implement clear guidelines for using interpreter
support to assist with immigration duties and responsibilities.

ICE Response: Responsibilities in the area of training are carried out by OTD. The 287(g)
students are advised about the proper utilization of interpreters during the Alien
Processing and I-213 blocks of instruction in the Immigration Authority Delegation


                       The Performance of 287(g) Agreements Report Update 
 


                                             Page 57
 

Appendix C
Recommendations from Prior Report

Program (IADP). Additionally, the use of interpreters is covered in depth during the
Sworn Statements block of instruction.

OIG Response: This recommendation remains unresolved and open. Instructions
referenced in the ICE response do not provide detailed guidelines on the circumstances in
which interpreter support should be used to assist with immigration duties and
responsibilities.

Recommendation #26: Establish a process to provide the public and other stakeholders
with comprehensive information about the 287(g) program and associated operations.

ICE Response: ICE provides the DRAFT: Office of State and Local Coordination, 287(g)
Communications Plan, FY 2011-2012, v 0.12, for OIG review.

OIG Response: This recommendation remains resolved and open pending our receipt of
the final communications plan as implemented.

Recommendation #27: Ensure the accuracy of information disseminated to the public about
the goals of the 287(g) program, its various operations, and how immigration enforcement
activities are carried out in the actual working environment.

ICE Response: ICE provides the DRAFT: Office of State and Local Coordination, 287(g)
Communications Plan, FY2011-2012, v 0.12, for OIG review.

OIG Response: This recommendation remains resolved and open pending our receipt of
the final communications plan as implemented.

Recommendation #29: Require 287(g) officers to identify themselves and display their
credentials during federal immigration arrests, before initiating interviews regarding alien
status and removability, and as part of other immigration processing activities.

ICE Update: Responsibilities in the area of training are carried out by OTD. During the
training program (IADP), all 287(g) students are instructed that, as the first mandatory
step in any official encounter, they must identify themselves by name, agency, and title
and should never assume that the person encountered knows who s/he is, even if wearing
a raid jacket, badge, etc. This issue is clearly covered in Alien Encounters lesson plan for
IADP.

OIG Response: Our report indicated that 287(g) officers do not wear distinctive clothing,
and do not regularly display credentials during the conduct of all 287(g) related activities.
Due to the sensitive nature of this issue, ICE needs to not only provide classroom instruction
from a lesson plan, but establish clear requirements regarding this issue. This
recommendation remains unresolved and open.




                        The Performance of 287(g) Agreements Report Update 
 


                                              Page 58
 

Appendix C
Recommendations from Prior Report

Recommendation #30: Develop training and provide basic program information for LEA
managers who maintain an oversight role for 287(g) officers in order to increase their
understanding of the program and encourage their support of 287(g) activities.

ICE Response: ICE provides the draft, Curriculum Design Plan Report, ICE Training for
Managing 287(g) Agents and Officers, Office of Training and Development, dated May
2010 for OIG review.

OIG Response: The draft document provided by ICE includes language that this training
will provide ICE managers a comprehensive understanding of the 287(g) program and their
duties and responsibilities required under the program. This recommendation will remain
resolved and open pending receipt of the final training document, and basic program
information that will be provided to LEA managers with an oversight role for 287(g) officers.

Recommendation #31: Establish and implement standard immigration system access profiles
for 287(g) officers to ensure that officers have the access needed to perform immigration
functions. These access profiles should be customized by program model to address the
different functions that TFOs and jail enforcement officers (JEO) perform.

ICE Response: ICE ensures that all 287(g) officers have access to the necessary tools to
perform immigration functions. A PICS profile (PICS Access Request Form provided for
OIG review) enables access to CIS, NFTS, CLAIMS and ENFORCE. It is at the SACs’
discretion to provide TECS access to TFOs for case management, as needed.

ICE provides Section 2 of the Password Issuance and Control System, Security Officer
User Manual for OIG review.

OIG Response: Based on documentation provided, the Password Issuance and Control
System, Security Officer User Manual does not provide information regarding access to CIS,
NFTS, CLAIMS and ENFORCE. According to the manual, the PICS database contains
information about all INS employees, contractors, other governmental agency employees,
and Foreign Service nationals identified in DHS Personnel Security. This recommendation
remains resolved and open.

Recommendation #32: Develop a process for performing regular checks to ensure that aliens
identified through the 287(g) program are not held in unauthorized facilities while in ICE
custody.

ICE Response: Responsibilities in the area of custody are carried out by DRO. All
individuals encountered through the 287(g) program and taken into ICE custody will only
be placed in ICE authorized facilities. FODs will ensure designated 287(g) program
supervisors conduct quarterly checks to ensure all aliens identified through the 287(g)
program are not held in unauthorized facilities while in ICE custody. FODs are
responsible for communicating and sharing this information with staff within their
respective areas of responsibility to ensure compliance with this guidance.


                       The Performance of 287(g) Agreements Report Update 


                                            Page 59

Appendix C
Recommendations from Prior Report

OIG Response: This recommendation remains resolved and open pending our receipt of
guidance regarding the process used to conduct and verify quarterly checks to ensure that
aliens identified through the 287(g) program are not held in unauthorized facilities while in
ICE custody.




                        The Performance of 287(g) Agreements Report Update 
 


                                              Page 60
 

Appendix D
Side-by-side Comparison of OLD MOA vs. New MOA Template


SECTION           Old MOA                               New MOA
Introduction      “ICE authorizes up to a               Deleted
                  maximum of eight (8)
                  nominated, trained, and
                  certified LEA personnel...”
                  “It is the intent of the parties      “It is the intent of the parties that
                  that these delegated                  these delegated authorities will
                  authorities will enable the           enable the Agency to identify
                  LEA to identify and process           and process immigration
                  immigration violators and             violators and conduct criminal
                  conduct normal state-based            investigations under ICE
                  criminal investigations in the        supervision...”
                  state...”
                  “points of contact for         Deleted from Introduction and
                  purposes of this MOA are       moved to new Section XXI
                  identified in Appendix A”      Points of Contact.
I. Purpose        Purpose is “to set forth terms Almost verbatim, but new
                  and conditions pursuant to     introductory sentence “to
                  which selected LEA             enhance the safety and security
                  personnel...will be nominated, of communities by focusing
                  trained, and thereafter        resources on identifying and
                  perform certain functions of   processing for removal criminal
                  an immigration officer”.       aliens who pose a threat to public
                                                 safety or a danger to the
                                                 community...”
                  “This MOA also describes the Deleted, but complaint procedure
                  complaint filing               remains Appendix B.
                  procedures...”
II. Authority     Section 287(g) of INA          No change
III. Policy       MOA sets forth the:            Similar language and new
                  • Scope of the immigration provision:
                     officer functions.          • Requires Agency to collect
                  • Duration of authority            program information or data.
                     conveyed.                   • See also Section V.
                  • Specific lines of authority,
                     including requirement that
                     LEA personnel are subject
                     to ICE supervision while
                     performing immigration-
                     related duties.




                  The Performance of 287(g) Agreements Report Update 
 


                                        Page 61
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION                       Old MOA                               New MOA
Assignments 1                 LEA personnel must receive            Training re-addressed in Section
                              authorization through training        VIII Training.
                              (Section VIII).
                              Enumerates the LEA                    Deleted
                              personnel authorized to
                              conduct the immigration
                              office functions.
                              “The LEA officers will                Deleted
                              immediately contact the
                              SAC... when matters of
                              investigative interest to ICE
                              should arise in the course of
                              performing immigration-
                              related duties...”
IV. Designation of            LEA personnel are authorized          “Approved participating Agency
Authorized                    to perform the listed                 personnel will be authorized to
Functions                     functions.                            perform immigration officer
                                                                    functions outlined in 287(g)(1) of
                              For list, see section below on        the INA..., subject to the
                              the SOP.                              limitations contained in the
                                                                    Standard Operating Procedures
                                                                    (SOP) in Appendix D to this
                                                                    MOA.”
V. Detention and              LEA should pursue to                  Now in Section I, Policy.
Transportation                completion prosecution
Issues                        charges that caused alien to
                              be arrested.
                              ICE will only assume custody          Now in Section I, Policy
                              once an alien has been
                              convicted and served their
                              sentence.
                              ICE will assume custody of            Now in Section I, Policy
                              alien with prior conviction
                              and when detention is
                              required by statute.
                              ICE DRO FOD will                      Similar language.
                              determine if ICE should
                              assume custody of alien on a
                              case-by-case basis if
                              extenuating circumstances
                              exist.

1
    Section deleted from new MOA Template, but certain provisions re-addressed in other sections.


                             The Performance of 287(g) Agreements Report Update 


                                                   Page 62

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION             Old MOA                               New MOA
                    DRO is responsible for                Similar language.
                    managing limited ICE
                    resources and may exercise
                    discretion by declining aliens.
                                                          New provision: “ICE and the
                                                          Agency will prioritize the
                                                          detention of aliens in conformity
                                                          with ICE detention priorities.”
                    If ICE deems necessary,               Similar language.
                    Agency will enter into IGSA
                    to house aliens after
                    completion of sentence for
                    reimbursable fee.
                    “The LEA facility will be             “If ICE and the Agency enter
                    expected to meet ICE                  into an IGSA, the Agency must
                    detention standards for either        meet the applicable ICE National
                    a less than 72-hour or over-72        Detention Standards.”
                    hour facility as determined by
                    ICE and consistent with the
                    anticipated detention period.”
                    If ICE deems it necessary,            The Agency must receive prior
                    Agency will enter into IGSA           approval from ICE for
                    to transport aliens after             transportation or ICE will make
                    completion of sentence to             no reimbursement.
                    ICE-designated facility for
                    reimbursable fee.
                    If ICE deems it necessary,            Moved to Section X, Cost and
                    LEA will provide ICE office           Expenditures.
                    space free of charge at LEA
                    for ICE supervisory
                    employees to work.
                    LEA will transport removable          Deleted
                    alien to ICE facility upon
                    completion of sentence so no
                    further detention costs are
                    incurred by ICE. LEA must
                    notify and coordinate with
                    ICE supervisor prior to
                    moving alien.
VI. Nomination of   “ICE may request any                  “[ICE’s independent]
    Personnel       information necessary for a           background check requires all
                    background check to include,          candidates to complete a
                    but not limited to, submission        background questionnaire. This


                    The Performance of 287(g) Agreements Report Update 
 


                                          Page 63
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION            Old MOA                         New MOA
                   of fingerprints and a personal  questionnaire requires, but is not
                   history questionnaire to        limited to, the submission of
                   evaluate a candidate’s          fingerprints, a personal history
                   suitability...”                 questionnaire, and the
                                                   candidate’s disciplinary
                                                   history...”
                   Candidates must be able to      Deleted and new provision: “In
                   qualify for appropriate federal addition to the Agency
                   security clearances.            background check, ICE will
                                                   conduct an independent
                                                   background check for each
                                                   candidate.”
                                                   New provisions:
                                                   • LEA must conduct current
                                                       criminal background check
                                                       within past 5 years.
                                                   • LEA must provide all
                                                       information and materials to
                                                       ICE upon request.
                                                   • Agency will provide written
                                                       privacy waiver signed by
                                                       candidate allowing ICE
                                                       continuous access to
                                                       candidate’s disciplinary
                                                       records upon ICE request.
                   Candidate must be US citizen Same
                   All candidates must have at     • For TFO: Moved to
                   least 2 years of LEA                Appendix D, SOP Template.
                   experience.                         TFO Model - Nominating
                                                       Personnel: Should have at
                                                       least 1 year of experience.
                                                   • For Detention Model:
                                                       Deleted
                   Approved officers will use      Same and new provisions:
                   287(g) authority for at least 2 • If approved officer in
                   years.                              bargaining unit, Agency must
                                                       have agreement with
                                                       exclusive representative to
                                                       keep person in position for at
                                                       least 2 years.
                                                   • Above requirement may be
                                                       lifted at ICE’s discretion for
                                                       good cause.

                  The Performance of 287(g) Agreements Report Update 
 


                                        Page 64
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION            Old MOA                              New MOA
                   Candidates in jail populations       • Moved to Appendix D, SOP
                   must have experience                     Template. Detention Model ­
                   supervising inmates,                     Nominating Personnel and
                   maintaining the security of a            language almost verbatim.
                   facility, enforcing rules and        • New provisions: Must have
                   regulations governing inmate             knowledge of and have
                   accountability and conduct,              enforced laws and regulations
                   and the ability to handle                pertinent to their law
                   individuals from different               enforcement activities and
                   backgrounds.                             their jurisdictions.
                   TFOs’ work experience                Moved to Appendix D, SOP
                   should consist of interviewing       Template. TFO Model ­
                   witnesses, interrogating             Nominating Personnel and
                   subjects, providing                  language almost verbatim.
                   constitutional rights warnings,
                   obtaining statements and
                   executing search and seizure
                   warrants, with emphasis on
                   officers who have planned,
                   organized and conducted
                   complex investigations
                   relating to violations of
                   criminal and civil law.
                   TFOs must be sworn/certified         Same and new provision: Must
                   officers, possess arrest             be employed full time by
                   authority, and be authorized         Agency.
                   to carry firearms.                   New provision: All candidates
                                                        must certify he/she is not
                                                        prohibited from carrying firearms
                                                        pursuant to state or federal law.
                   “All candidates must be              “All candidates must be
                   approved by ICE and must be          approved by ICE and must be
                   found eligible for access to         able to qualify for access to
                   sensitive information.”              appropriate DHS and ICE
                                                        databases.”
                   Can substitute for candidates        Same
                   who are not approved as long
                   as it does not delay training.
                   Future expansion of approved         Same
                   officers or scheduling
                   additional training can be
                   based on an oral agreement.



                  The Performance of 287(g) Agreements Report Update 
 


                                        Page 65
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION                      Old MOA                               New MOA
VIII. 2 Training of          ICE provides 4-week training          Moved to Appendix D SOP
Personnel                    that covers:                          Template: “ICE will provide
                             • Terms and limitations of            participating Agency personnel
                                 MOA                               with Immigration Authority
                             • Scope of immigration                Delegation Program (IADP)
                                 officer authority                 training consistent with the
                             • Relevant immigration law            accompanying SOP.”
                             • ICE Use of Force Policy
                             • Civil rights laws                   Appendix D, SOP Template,
                             • DOJ June 2003 Memo                  does not mention 4-week
                                 regarding Use of Race by          training, but topics covered
                                 LEA                               almost verbatim.
                             • Outreach and complaint
                                 procedures
                             • Liability issues
                             • Cross-cultural issues
                             • Obligation under federal
                                 law and Vienna
                                 Convention on Consular
                                 Relations notifications
                             ICE may provide additional            Same and new provision: “An
                             training after one year               OSLC designated official shall,
                             participation and local               in consultation with OTD and
                             training offered on ongoing           local ICE officials, review on an
                             basis.                                annual basis, and if needed,
                                                                   refresh training requirements.”
                                                                   New provisions:
                                                                   • 287(g) training program, the
                                                                       Immigration Authority
                                                                       Delegation Program (IADP),
                                                                       will be taught by ICE
                                                                       instructors and tailored to the
                                                                       immigration functions to be
                                                                       performed.
                                                                   • ICE OTD will proctor
                                                                       examinations during IADP.
                                                                       Agency nominee must pass
                                                                       each exam with a minimum
                                                                       score of 70% to receive
                                                                       certification. During entire
                                                                       duration of IADP, the
2
    Note numbering mistake; no section VII 



                             The Performance of 287(g) Agreements Report Update 


                                                  Page 66

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION             Old MOA                               New MOA
                                                             Agency nominee will be
                                                             offered a maximum of one
                                                             remediation examination.
IX. Certification   •    ICE will certify in              Same
and Authorization        writing, to ICE SAC or
                         FOD, names of LEA
                         personnel who
                         successfully complete
                         training and pass all
                         required testing.
                    • Upon receipt of
                         certification, ICE SAC or
                         FOD will provide
                         participating Agency
                         personnel a signed
                         authorization letter.
                    • Authorization for initial
                         period of one year.
                    • LEA will also receive
                         copy of authorization.
                    • Authorization can be
                         withdrawn/revoked at any
                         time and is effective as
                         soon as other party
                         notified.
                    • Termination of MOA
                         serves as immediate
                         revocation for all
                         authorized officers.
                    • LEA and SAC/FOD
                         responsible for notifying
                         all appropriate personnel
                         of withdrawal/revocation.
                    “The ICE supervisory officer,         “Only those certified Agency
                    or designated team leader,            personnel who receive
                    will evaluate the activities of       authorization letters issued by
                    all certified personnel               ICE and whose immigration
                    certified under this MOA.”            enforcement efforts are subject to
                                                          a designated ICE supervisor may
                                                          conduct immigration officer
                                                          functions described in this
                                                          MOA.”
                                                          New provisions:

                    The Performance of 287(g) Agreements Report Update 
 


                                          Page 67
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION            Old MOA                              New MOA
                                                        • Must successfully complete
                                                           IADP training as described in
                                                           SOP before receiving
                                                           authorization.
                                                        • Must pass ICE examination
                                                           after instruction – does NOT
                                                           state ICE equivalent
                                                           examination.
                                                        • Upon completion of training,
                                                           program personnel
                                                           considered “certified” – does
                                                           NOT state considered
                                                           equivalent to ICE officer.
                                                        • Certified user will receive
                                                           “Delegation of Authority”
                                                           credentials.
                                                        • Personnel will sign for the
                                                           credentials (Form G-570)
                                                           which will go in ICE records.
                                                        • Revocation must be
                                                           documented in writing,
                                                           which should include date of
                                                           withdrawal.
                                                        • LEA must notify ICE when
                                                           officer is no longer
                                                           participating in 287(g)
                                                           program so appropriate
                                                           action can be taken, including
                                                           termination of user account
                                                           access to DHS and ICE
                                                           systems.
X. Costs and       •   LEA responsible for              Same and new provisions:
   Expenditures        officer’s salary, benefits,      • Agency will cover the costs
                       and overtime.                       of all Agency personnel’s
                   •   ICE will provide                    travel, housing, and per diem
                       instructors and training            affiliated with the training
                       material and are                    required for participation in
                       responsible for salary and          this MOA.
                       benefits of its instructors.     • Agency responsible for all
                   •   If ICE deems training is            expenses at its facility
                       direct benefit of                   regarding cabling and power
                       government, the                     upgrades.
                       government may                   • Agency responsible for any

                  The Performance of 287(g) Agreements Report Update 
 


                                        Page 68
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION            Old MOA                              New MOA
                      reimburse candidates for            installation and recurring
                      travel, housing, and per            costs associated with
                      diem. LEA responsible               Agency’s own
                      for salaries and benefits.          communication lines.
                   • ICE responsible for
                      purchase, installation, and
                      maintenance of
                      technology.
                   • Use of equipment limited
                      to authority outlined in
                      MOA.
                   • ICE will provide technical
                      support and software
                      upgrades.
                   • All equipment remains
                      property of ICE and shall
                      be returned upon
                      termination.
                   • LEA responsible for all
                      administrative supplies.
XI. ICE            • Immigration enforcement            Same and new provisions:
    Supervision       activities will be                • “To establish supervisory and
                      supervised by ICE and                other administrative
                      can be conducted only                responsibilities, the
                      under ICE supervision or             SAC/FOD will specify the
                      guidance.                            supervisory and other
                   • ICE must be notified                  administrative
                      within 24 hours of issuing           responsibilities in an
                      a detainer.                          accompanying agreed-upon
                   • ICE will review LEA                   SOP.”
                      officer actions on an             • ICE will supervise
                      ongoing basis to ensure              investigations conducted in
                      compliance.                          conjunction with immigration
                   • ICE will supervise only               enforcement functions.
                      for immigration related
                      activity.
                   • LEA officer must abide
                      by DHS and ICE policies
                      (including Use of Force).
                   • Any conflicts between
                      DHS/ICE and LEA
                      policies should be stated


                  The Performance of 287(g) Agreements Report Update 
 


                                        Page 69
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION               Old MOA                               New MOA
                          ASAP and resolved by
                          SAC/FOD and LEA.
XII. Reporting        LEA responsible for tracking          Agency not required to provide
   Requirements       and maintaining data and              statistical or arrest data above
                      statistical information.              what is entered into ENFORCE;
                                                            however, ICE reserves right to
                                                            request the Agency to provide
                                                            specific tracking data and/or any
                                                            information, documents, or
                                                            evidence related to the
                                                            circumstances of a particular
                                                            alien’s arrest.
                      ICE may request data for              Similar
                      comparison with own data,
                      statistical reporting                 See also Appendix D SOP/Data
                      requirements, and to assess           Collection
                      progress/success of LEA
                      287(g) program.
XIII. Liability and   To the extent allowed by state        Same, except Agency shall
Responsibility        law, the LEA shall                    immediately notify local POC for
                      immediately notify ICE of             ICE Office of Professional
                      existence and nature of all           Responsibility and the
                      complaints, as well as,               SAC/FOD.
                      resolution of complaint.
                      • LEAs are responsible for            Same
                          covering any
                          personal/property costs
                          for their officers “incurred
                          by death, injury, or
                          incidents giving rise to
                          liability.”
                      • 287(g) authorized officers
                          are considered federal
                          employees only as it
                          relates to the Federal Tort
                          Claims Act and worker’s
                          compensation claims.
                      • LEA officers agree to
                          comply with federal
                          standards and guidelines.
                      Participating Agency                  Same. Also new provision:
                      personnel named as                    Requests for representation by
                      defendants in litigation              USDOJ should be in form of


                      The Performance of 287(g) Agreements Report Update 
 


                                            Page 70
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION            Old MOA                               New MOA
                   arising from activities carried       written memorandum addressing
                   out under this MOA may                each and every allegation in the
                   request in writing to the US          complaint, explaining as well as
                   Attorney General to be                admitting or denying each
                   represented by the USDOJ              allegation.
                   and such request will be
                   handled in coordination with
                   the SAC and/or FOD.
                   The LEA agrees to cooperate           Same and new provisions:
                   with any federal investigation        • Includes providing access to
                   related to this MOA to the               appropriate databases,
                   full extent of its available             personnel, and documents.
                   powers.                               • Failure to do so may result in
                                                            termination of this MOA and
                                                            failure of an officer to
                                                            cooperate may result in
                                                            revocation of such
                                                            individual’s authority
                                                            provided under this MOA.
                                                         New provisions:
                                                         • Agency agrees to cooperate
                                                            with federal personnel
                                                            conducting MOA compliance
                                                            reviews to provide access to
                                                            appropriate databases,
                                                            personnel and documents, as
                                                            necessary.
                                                         • Agency and ICE are each
                                                            responsible for compliance
                                                            with Privacy Act of 1974 and
                                                            ENFORCE Systems of
                                                            Records Notice.
XIV. Complaint     “The complaint reporting and          Same
   Procedures      resolution procedure...is
                   included at Appendix B.”
XV. Civil Rights   Must abide by all federal civil       Same
  Standards        rights statue and regulations.
                   LEA will provide language             Moved to new Section XVI,
                   interpreters as needed for            Interpretation Services:
                   subjects with limited English.        Same and new provisions:
                                                         • Agency will maintain a list of
                                                             qualified language
                                                             interpreters.

                   The Performance of 287(g) Agreements Report Update 
 


                                         Page 71
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION                     Old MOA                               New MOA
                                                                  • Agency officers will be
                                                                      instructed on administrative
                                                                      procedures to obtain
                                                                      interpretation services.
                                                                  • Qualified interpreter means
                                                                      one who can interpret
                                                                      effectively, accurately, and
                                                                      impartially, using any
                                                                      specialized vocabulary.
                                                                  • Any interpreter must be
                                                                      identified by name in records.
XVI. Interpretation         Section did not exist.                See analysis above on Section
    Services                                                      XV, Civil Rights and Standards.
XVI.                        SAC/FOD and LEA shall                 SAC/FOD and LEA shall meet at
    Communication           establish steering committee          least annually, and as needed, to
[Steering                   that will meet (at a location or      review and assess immigration
    Committee 3 ]           teleconference) periodically          enforcement activities and
                            to review and assess                  compliance with MOA.
                            immigration enforcement
                            activities and compliance
                            with MOA.
                                                                  New provision: “When
                                                                  necessary, ICE and the Agency
                                                                  may limit the participation of
                                                                  these meetings in regards to non-
                                                                  law enforcement personnel.”
                            •  Participants will be               Same
                               supplied with jurisdiction
                               immigration enforcement
                               information.
                            • First meeting should be
                               held within 9 months of
                               establishment.
XVII. Community             LEA can conduct outreach.             Same
Outreach                    ICE can participate if LEA
                            requests.                             New provision:
                                                                  • Nothing in this MOA shall
                                                                      limit ICE’s own community
                                                                      outreach program.
XIX. Release of             LEA may share information             Same and new provision:
Information to the          about the MOA to groups               Per ICE practice, Agency may

3
    Old MOA section title


                            The Performance of 287(g) Agreements Report Update 


                                                 Page 72

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION                     Old MOA                               New MOA
Media and Other             interested in the law                 only provide MOA to media
Third Parties               enforcement activities.               outlets after it has been signed.
[Relations with the         LEA agrees to coordinate              Agency agrees to coordinate with
News Media 4 ]              with ICE regarding                    ICE prior to releasing any
                            information to be released to         information relating to, or
                            the media regarding actions           exchanged, under this MOA
                            taken under this MOA.                 including any SOPs developed.
                            All contact with the media            Same
                            involving investigations
                            conducted under this MOA
                            by TFOs will be done
                            pursuant to ICE policy.
                            POCs are identified in
                            Appendix C.
                                                                  New provisions:
                                                                  • Any information relating to
                                                                      the MOA is under control of
                                                                      ICE and subject to federal
                                                                      disclosure laws.
                                                                  • Any Agency documents
                                                                      created relating to the MOA
                                                                      shall not be considered public
                                                                      records.
                                                                  • Release of statistical
                                                                      information regarding the
                                                                      287(g) program must be
                                                                      coordinated with ICE Office
                                                                      of Public Affairs.
XX. Modification to Proposed in writing and                       Proposed in writing and
this MOA            approved by signatories.                      approved and signed by
                                                                  signatories. Modification to
                                                                  Appendix D shall be done in
                                                                  accordance with the procedures
                                                                  outlined in the SOP.
XXI. Points of              Section did not exist, but            Identified in Appendix A and can
Contact                     stated in the Introduction as         be updated at any time by
                            identified in Appendix A.             providing a revised Appendix A
                                                                  to the other party to this MOA.
XXII. Duration and MOA will remain in effect                      • MOA in effect for 3 years
Termination of this until terminated by either                        unless terminated by either
MOA                 party.                                            party.

4
    Old MOA section title


                            The Performance of 287(g) Agreements Report Update 


                                                 Page 73

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION             Old MOA                               New MOA
                                                          • At expiration of 3 year
                                                             effective period, ICE and
                                                             Agency shall review the
                                                             MOA and modify, extend, or
                                                             permit the MOA to lapse.
                    •    MOA can be terminated            Same
                         by either party at any time
                         with written notice.
                    •    A program can be
                         temporarily suspended
                         with oral or written
                         notification. Both parties
                         must be notified.
                                                          New provisions:
                                                          • Upon good faith
                                                             determination that Agency is
                                                             not fulfilling its duties, ICE
                                                             shall notify Agency in
                                                             writing that it has 90 days to
                                                             demonstrate a continued need
                                                             for program services.
                                                          • If continued need not
                                                             demonstrated, MOA will be
                                                             terminated or suspended.
                                                          • Upon subsequent
                                                             demonstration of need,
                                                             Agency will bear all
                                                             reinstatement costs.
Appendix A Points   Self-explanatory                      Same
of Contact
Appendix B          Complaints filed against LEA          Same
Complaint           personnel in course of their
Procedure           non-immigration related
                    duties will remain domain of
                    LEA.




                    The Performance of 287(g) Agreements Report Update 
 


                                          Page 74
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION            Old MOA                               New MOA
                                                         New provision:
                                                         Agency must immediately notify
                                                         SAC and ICE OPR of any
                                                         complaint or allegation against
                                                         any participating Agency
                                                         personnel involved in violating
                                                         MOA that may result in
                                                         receiving employer discipline or
                                                         be subject to a criminal or civil
                                                         lawsuit.

                   LEA will handle complaints            Same, except such complaints
                   filed against non-designated          must be forwarded to SAC or
                   and non-certified personnel           FOD and not monitored by
                   who may exercise                      Steering Committee.
                   immigration authority, which
                   will be monitored by the
                   Steering Committee.
                   OPR and LEA Administrative            Deleted
                   Investigations Unit will
                   coordinate complaint receipt
                   and investigation.
                   When appropriate, ICE OPR             Deleted
                   will forward complaints to
                   DHS OIG for review and
                   ensure notification to DOJ
                   CRD. If investigation by
                   DHS OIG or DOJ CRD
                   warranted, this does not
                   preclude the entities working
                   with the LEA to investigate.
                   ICE OPR and LEA will                  Deleted
                   adhere to existing policies
                   and procedures of their
                   respective agencies.
1. Complaint and   Reporting procedures shall be
Allegation         disseminated as appropriate
Reporting          by the LEA within facilities
Procedures         under its jurisdiction in
                   English and other languages
                   as appropriate.
                   Complaints may be accepted            Same and new provision: ICE
                   from any source (e.g. ICE,            will immediately forward


                   The Performance of 287(g) Agreements Report Update 
 


                                         Page 75
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION            Old MOA                              New MOA
                   LEA, participating LEA               complaint to DHS CRCL.
                   personnel, inmates, and
                   public).
                   Complaints may be reported           Same, except telephonically to
                   to the following federal             DHS OIG instead of RAC of ICE
                   authorities:                         OPR.
                   • Telephonically to ICE
                       OPR at Joint Intake
                       Center.
                   • Telephonically to RAC of
                       ICE OPR in jurisdiction.
                   • Via mail to OPR.
                   Complaints may be reported           Deleted
                   to:
                   • LEA’s Professional
                       Standards Section, or
                   • Supervisor of any
                       participating LEA
                       personnel or to the
                       incumbent Sheriff
2. Review of       • LEA will report all                Same
Complaints             complaints received to
                       ICE OPR.
                   • ICE OPR will verify
                       participating personnel’s
                       status.
                   • Complaints received by
                       any ICE entity will be
                       reported to ICE OPR per
                       existing ICE policies and
                       procedures.
                   • ICE OPR will make initial
                       determination of ICE
                       investigative jurisdiction
                       and refer complaint to the
                       appropriate office.
                   • ICE OPR will share
                       complaints received
                       involving LEA personnel
                       with LEA’s International
                       Investigation Office.
                       Both offices will then


                  The Performance of 287(g) Agreements Report Update 
 


                                        Page 76
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION                Old MOA                               New MOA
                           coordinate appropriate
                           investigative jurisdiction,
                           which may include joint
                           investigation.
3. Complaint and       ICE OPR will undertake                Same
Allegations            complete review of each
Resolution             complaint according to
Procedures             existing ICE allegation
                       criteria and reporting
                       requirements.
                       “As stated above, ICE OPR             Same
                       will adhere to existing ICE
                       reporting requirements as
                       they relate to the DHS OIG
                       and/or the DOJ CRD.”
3.A. Referral of       ICE OPR will refer                    Same
Complaints to          complaints to LEA’s Internal
Agency’s Internal      Investigations Office, as
Investigation’s Unit   appropriate, for resolution.
3.B. Interim Action    Requirements of the LEA               Reference to LEA policy
Pending Complaint      policy shall be honored and if        requirements deleted and “if
Resolution             appropriate, an individual            appropriate” language deleted
                       may be removed from                   from ICE’s power to revoke.
                       program pending resolution.
3.C. Time              Complaint expected to be              Same
Parameters for         resolved within 90 days.
Resolution of
Complaints or
Allegations
3.D. Notification of   ICE OPR will coordinate with          ICE OPR will coordinate with
Resolution of a        LEA’s Investigations Unit to          LEA’s Investigations Unit to
Complaint or           ensure notification, as               ensure notification, as
Allegation             appropriate, to the subject(s)        appropriate, to the ICE SAC, the
                       of a complaint regarding              subject(s) of a complaint, and the
                       resolution.                           person filing the complaint
                                                             regarding resolution.
                                                             New provision:
                                                             • These Complaint Reporting
                                                                 and Allegation Procedures
                                                                 are ICE’s internal policy and
                                                                 may be supplemented and
                                                                 modified by ICE unilaterally.
                                                             • ICE will provide Agency


                       The Performance of 287(g) Agreements Report Update 
 


                                             Page 77
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION                       Old MOA                                New MOA
                                                                         with written copies of any
                                                                         supplements or
                                                                         modifications.
                                                                     • These Complaint Reporting
                                                                         and Allegation Procedures
                                                                         apply to ICE and do not
                                                                         restrict or apply to other
                                                                         federal investigative
                                                                         organizations.
Appendix C Public             Self-explanatory                       Self-explanatory, no change
Information Points
of Contact
Appendix D                    Appendix did not exist.                •    Purpose is to establish
Standard                                                                  standard, uniform procedures
Operating                                                                 for implementation and
Procedures (SOP)                                                          oversight of 287(g)
Template 5                                                                delegation of authority.
                                                                     • SOP can be modified only in
                                                                          writing and by mutual
                                                                          acceptance by both the
                                                                          SAC/FOD and designated
                                                                          Agency.
                                                                     • 2 models: Task Force Officer
                                                                          or Detention.
Prioritization                Provision did not exist.               “ICE retains sole discretion in
                                                                     determining how it will manage
                                                                     its limited resources...” Agency
                                                                     resources should be prioritized to
                                                                     the following levels:
                                                                     Level 1 – Aliens who have been
                                                                     convicted of or arrested for major
                                                                     drug offenses and/or violent
                                                                     offenses such as murder,
                                                                     manslaughter, rape, robbery, and
                                                                     kidnapping.
                                                                     Level 2 – Aliens who have been
                                                                     convicted of or arrested for
                                                                     minor drug offenses and/or
                                                                     mainly property offenses, such as
                                                                     burglary, larceny, fraud, and
                                                                     money laundering; and

5
    Under old MOA model, certain provisions are in other sections.


                             The Performance of 287(g) Agreements Report Update 


                                                   Page 78

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION                      Old MOA                               New MOA
                                                                   Level 3 – Aliens who have been
                                                                   convicted of or arrested for other
                                                                   offenses.
Training                     See Section VIII above                See Section VIII above
Data Collection              See Section XII, Reporting            See Section XII, Reporting
                             Requirements                          Requirements, and new
                                                                   provisions:
                                                                   • ENFORCE is primary
                                                                       processing system for alien
                                                                       removals and main resource
                                                                       for statistical information for
                                                                       287(g) program.
                                                                   • ENFORCE entries must be
                                                                       completed in accordance with
                                                                       ICE policies and OSLC
                                                                       guidance.
                                                                   • Agency not required to
                                                                       provide statistical or arrest
                                                                       data above what is entered
                                                                       into ENFORCE; however,
                                                                       ICE reserves right to request
                                                                       the Agency to provide
                                                                       specific tracking data and/or
                                                                       any information, documents,
                                                                       or evidence related to the
                                                                       circumstances of a particular
                                                                       alien’s arrest. 6
                                                                   • ICE may request data for
                                                                       comparison with own data,
                                                                       statistical reporting
                                                                       requirements, and to assess
                                                                       progress/success of LEA
                                                                       287(g) program. 7
                                                                   Agency and ICE are each
                                                                   responsible for compliance with
                                                                   Privacy Act of 1974 and
                                                                   ENFORCE Systems of Records
                                                                   Notice.
Task Force Officer           Participating LEA personnel           Same and new provisions:
(TFO) Model                  has power and authority to:           • Agency is authorized to

6
    These provisions repeated verbatim under Section XII, Reporting Requirements
7
    Certain provisions repeated verbatim under Section XII, Reporting Requirements


                             The Performance of 287(g) Agreements Report Update 


                                                  Page 79

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION            Old MOA                              New MOA
                   • Interrogate anyone                      perform pursuant to tiered
                      believed to be an alien as             level of priorities.
                      to his right to be or             • Execute search warrants.
                      remain in United States.          • Issue arrest warrants for
                   • Arrest without warrant                  immigration violations.
                      any alien attempting to           ICE requires the Agency to focus
                      unlawfully enter the              its use of the 287(g) program in
                      United States.                    accord with ICE’s priorities.
                   • Arrest without warrant for
                      immigration related
                      felonies which have been
                      committed. ICE must be
                      notified of arrest within
                      24 hours.
                   • Serve warrants.
                   • Administer oath and take
                      evidence to complete
                      required criminal alien
                      processing.
                   • Prepare charging
                      documents for ICE
                      signature.
                   • Issue immigration
                      detainers and I-213.
                   • Detain and transport alien
                      to ICE approved detention
                      facilities.
TFO/Supervision    Provision did not exist.             •    If alien deportable, must
                                                             contact ICE for approval
                                                             before arresting.
                                                        •    Agency must ensure proper
                                                             record checks completed,
                                                             obtaining necessary
                                                             court/conviction documents
                                                             and upon arrest, processing
                                                             through ENFORCE/IDENT
                                                             and served with proper
                                                             charging documents.
                                                        •    ICE must be notified and
                                                             approve an enforcement
                                                             operation before initiation.
                                                        •    ICE supervisor is responsible


                  The Performance of 287(g) Agreements Report Update 
 


                                        Page 80
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION            Old MOA                        New MOA
                                                       for requesting and reviewing
                                                       A-files for completeness,
                                                       approval of all arrests, and
                                                       TECS checks and input.
                                                  • SAC/FOD must inform LEA
                                                       of updated DHS policy.
                                                  • ICE supervisor must audit
                                                       LEA ENFORCE/IDENT
                                                       system data periodically.
                                                  • If errors in data input, ICE
                                                       must notify LEA supervisor
                                                       and request plan/timeline for
                                                       correcting problem.
                                                  • ICE will provide guidance
                                                       for proper federal prosecution
                                                       of case.
                                                  • A-files must be signed by
                                                       ICE to be considered
                                                       complete.
                                                  • A-files may only be stored at
                                                       LEA only if ICE personnel
                                                       are on site and able to secure
                                                       A-files.
                                                  DHS personnel must have access
                                                  to facilities where files stored.
TFO/Nominated      See Section VI Nomination of See Section VI Nomination of
Personnel          Personnel                      Personnel
Detention Model    Participating LEA personnel    Same, except deleted:
                   has power and authority to:    • Arrest without warrant any
                   • Interrogate anyone                alien attempting to
                       believed to be alien as to      unlawfully enter the United
                       his right to be or remain       States.
                       in United States.          • Arrest without warrant for
                   • Arrest without warrant            immigration related felonies
                       any alien attempting to         that have been committed.
                       unlawfully enter the            ICE must be notified of arrest
                       United States.                  within 24 hours.
                   • Arrest without warrant for
                       immigration related        New provision:
                       felonies which have been ICE requires the Agency to focus
                       committed. ICE must be     its use of the 287(g) program in
                       notified of arrest within  accord with ICE’s priorities.
                       24 hours.

                  The Performance of 287(g) Agreements Report Update 
 


                                        Page 81
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION            Old MOA                      New MOA
                   • Serve warrants
                   • Administer oath and take
                      evidence to complete
                      required criminal alien
                      processing.
                   • Prepare charging
                      documents for ICE
                      signature.
                   • Issue immigration
                      detainers and I-213.
                   • Detain and transport alien
                      to ICE approved detention
                      facilities.
Detention/         Provision did not exist.     “287(g) delegation of authority
Supervision                                     Detention Model is designed to
                                                identify and remove
                                                aliens...pursuant to the tiered
                                                level of priorities...” The roles
                                                and responsibilities include:

                                                        •    Notifying ICE within 24
                                                             hours of any detainers placed
                                                             under 287(g).
                                                        •    Coordinating with ICE
                                                             transport of aliens in timely
                                                             manner.
                                                        •    Ensuring proper record
                                                             checks completed, obtaining
                                                             necessary court/conviction
                                                             documents and, upon arrest,
                                                             processing through
                                                             ENFORCE/IDENT and
                                                             serving proper charging
                                                             documents.
                                                        •    ICE must be notified and
                                                             LEA must report all aliens
                                                             claiming United States
                                                             citizenship to FOD – FOD
                                                             will notify DRO HQ.
                                                        •    ICE supervisor is responsible
                                                             for requesting and reviewing
                                                             A-files for completeness,
                                                             approval of all arrests, and

                  The Performance of 287(g) Agreements Report Update 
 


                                        Page 82
 

Appendix D
Side-by-Side Comparison of Old MOA vs. New MOA Template

SECTION            Old MOA                              New MOA
                                                          TECS checks and input.
                                                        • FOD must inform Agency of
                                                          updated DHS policy.
                                                        • ICE supervisor must audit
                                                          LEA ENFORCE/IDENT
                                                          system data periodically.
                                                        • If errors in data input, ICE
                                                          must notify LEA supervisor
                                                          and request plan/timeline for
                                                          correcting problem.

Detention/         See Section VI, Nomination           See Section VI, Nomination of
Nominated          of Personnel                         Personnel
Personnel




                  The Performance of 287(g) Agreements Report Update 
 


                                        Page 83
 

Appendix E
Major Contributors to This Report


                   Deborah Outten-Mills, Chief Inspector, Department of Homeland
                   Security, Office of Inspector General, Office of Inspections

                   Jacqueline Simms, Senior Inspector, Department of Homeland
                   Security, Office of Inspector General, Office of Inspections

                   Jennifer C. Kim, Inspector, Department of Homeland Security,
                   Office of Inspector General, Office of Inspections




                    The Performance of 287(g) Agreements Report Update 
 


                                          Page 84
 

Appendix F
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Director, U.S. Immigration and Customs Enforcement
                      ICE Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                      The Performance of 287(g) Agreements Report Update 
 


                                            Page 85
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
